<html>
<title> - AMERICA'S NATURAL DISASTER PREPAREDNESS: ARE FEDERAL INVESTMENTS PAYING OFF?</title>
<body><pre>[Senate Hearing 112-78]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 112-78

AMERICA'S NATURAL DISASTER PREPAREDNESS: ARE FEDERAL INVESTMENTS PAYING 
                                  OFF?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                  U.S. GOVERNMENT PRINTING OFFICE
68-067                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Brian M. Hendricks, Republican Staff Director and General Counsel
            Todd Bertoson, Republican Deputy Staff Director
                Rebecca Seidel, Republican Chief Counsel











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 3, 2011......................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     1
Statement of Senator Hutchison...................................    15
    Prepared statement...........................................    15
Statement of Senator Klobuchar...................................    23
Statement of Senator Boxer.......................................    25
    Prepared statement...........................................    26
Statement of Senator Nelson......................................    33
    Prepared statement...........................................    33

                               Witnesses

William H. Hooke, Ph.D., Senior Policy Fellow and Director, 
  American Meteorological Society................................     2
    Prepared statement...........................................     4
Robert Ryan, Senior Meteorologist, ABC7/WJLA-TV..................     5
    Prepared statement...........................................     8
Anne S. Kiremidjian, Ph.D., Professor, Department of Civil and 
  Environmental Engineering, Stanford University on Behalf of the 
  American Society of Civil Engineers............................     9
    Prepared statement...........................................    11
Professor Clint Dawson, Joe J. King Professor of Aerospace 
  Engineering and Engineering Mechanics, Department of Aerospace 
  Engineering and Engineering Mechanics, Institute for 
  Computational Engineering and Sciences, The University of Texas 
  at Austin......................................................    16
    Prepared statement...........................................    18

                                Appendix

Hon. Tom Udall, U.S. Senator from New Mexico, prepared statement.    39
Hon. Mark Warner, U.S. Senator from Virginia, prepared statement.    39
Response to written questions submitted to William H. Hooke, 
  Ph.D. by:
    Hon. John D. Rockefeller IV..................................    40
    Hon. Maria Cantwell..........................................    41
    Hon. Roger F. Wicker.........................................    42
Response to written questions submitted to Robert Ryan by:
    Hon. John D. Rockefeller IV..................................    43
    Hon. Maria Cantwell..........................................    44
    Hon. Roger F. Wicker.........................................    46
Response to written questions submitted to Anne S. Kiremidjian, 
  Ph.D. by:
    Hon. John D. Rockefeller IV..................................    47
    Hon. Maria Cantwell..........................................    50
    Hon. Roger F. Wicker.........................................    52
Response to written questions submitted to Professor Clint Dawson 
  by:
    Hon. John D. Rockefeller IV..................................    55
    Hon. Roger F. Wicker.........................................    56

 
                       AMERICA'S NATURAL DISASTER
                       PREPAREDNESS: ARE FEDERAL
                        INVESTMENTS PAYING OFF?

                              ----------                              


                          TUESDAY, MAY 3, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I'm going to put my absolutely brilliant 
opening statement in the record, which pains me greatly. But, 
we have a vote at 3:20, and the whole idea of doing statements 
and then going to you and then going to vote, then coming back, 
doesn't make much sense. And what does make sense is to have 
all of you say what you're going to say. And then we'll 
probably, at the end of that time, have to go vote. And then 
we'll question you when we get back, if you can put up with 
that situation.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Good afternoon. I want to welcome our distinguished panel of 
witnesses. Thank you for testifying before the Committee. And a special 
welcome to Bob Ryan, who so many in the Washington, D.C. region depend 
on for their weather news. Some may not know that his forecasts and 
alerts are critical to many in West Virginia's Eastern Panhandle. Thank 
you for being here today.
    We are here today to examine our Nation's ability to prepare and 
respond to natural disasters. The weather-provoked tragedies and 
terrible loss of life just days ago make it clear that this hearing 
could not come at a more important time.
    Two months ago, the world watched as a series of earthquakes and a 
massive tsunami roiled Japan: toppling cities, overturning buildings 
and killing thousands of people. It was a tragedy of epic proportions.
    And now, an ocean away, America is experiencing its own destruction 
and devastation because of natural disasters. Tornadoes and severe 
storms have rocked the American South and Midwest. In Alabama, the 
death toll has jumped to more than 200, and continues to climb, as 
families and first responders search rubble and razed towns for missing 
loved ones.
    At least 15 people have been killed in Georgia and 34 in 
Mississippi. It has been the deadliest outbreak of tornadoes in nearly 
40 years. We've seen whole neighborhoods ruined, homes flattened, cars 
flipped onto their sides, tractor-trailers twisting in the air like rag 
dolls. The destruction is devastating, and the death toll, rising.
    I want to extend my deepest condolences to friends and family 
who've lost loved ones to these disasters--and my deepest thanks to 
those who are working around-the-clock to respond to them. The 
destruction and loss of life has been absolutely heartbreaking.
    These events underscore just how important it is to be prepared for 
disaster when it strikes, and to mitigate damage, destruction and loss 
of life. They underscore how important it is to make the necessary 
strategic investments now to save lives and property in the future. I 
have one major question for our witnesses today: how can our Nation 
best respond to, prepare for, and mitigate the effects of natural 
disasters--such as earthquakes, flash floods, tornadoes, hurricanes and 
wildfires--when they strike?
    I find it extremely alarming that the American Society of Civil 
Engineers gave our Nation's infrastructure--our levees, bridges and 
roads--a ``D'' grade in 2009. We must do better.
    Right now, this Committee has several bills under consideration 
that would help reduce our Nation's risk from natural disasters.
    We know improved building codes can help reduce damage and 
fatalities when disasters strike. That is one of the aims of Senator 
Nelson's bill, the National Hurricane Research Initiative Act of 2011 
and Senator Boxer's bill, the Natural Hazards Risk Reduction Act of 
2011.
    We also know that when the unthinkable occurs, first responders 
must be able to communicate--seamlessly, across cities and states--with 
one another. That's what my bill, the Public Safety Spectrum and 
Wireless Innovation Act, will do.
    And we know that agencies, like NOAA, which provide early warnings, 
weather prediction and forecasting, need support and resources to do 
their jobs. That's why I will continue to fight reckless attempts to 
slash funding for the important services they provide.
    Natural disasters cannot be avoided, but their damages can be 
mitigated, and we must do everything we can toward that end.
    I want to again thank our witnesses for being here today. I look 
forward to learning your views on the state of our Nation's disaster 
preparedness and what more we can do to prepare going forward.

    The Chairman. Dr. William Hooke--we welcome you--Senior 
Policy Fellow and Director of the American Meteorological 
Society; Bob Ryan, Senior Meteorologist, ABC WJLA, covering 
five West Virginia counties--and you do warn us; and Dr. Anne 
Kiremidjian, who is Professor of the Department of Civil and 
Environmental Engineering at Stanford University; and Dr. 
Clinton Dawson, Professor, Institute of Computational 
Engineering and Science at the University of Texas at Austin.
    And you all are extraordinary in what you know. And, 
without, sort of, getting into it, let's get into you.
    So, Dr. Hooke, why don't we start with you. Give your 
testimony, please.

             STATEMENT OF WILLIAM H. HOOKE, Ph.D.,

               SENOR POLICY FELLOW AND DIRECTOR,

                AMERICAN METEOROLOGICAL SOCIETY

    Dr. Hooke. Thank you, Mr. Chairman.
    Today we grieve for those who suffered loss because of 
violent weather in recent weeks. And we can best honor their 
loss and suffering by working together to reduce the risks of 
further tragedy in coming years. So, thank you for convening 
this conversation on this topic. And thank you for letting us 
take part.
    Now, because of its size and location, the United States 
bears a unique degree of risk from natural hazards. We suffer 
from as many winter storms as Russia or China. We have as many 
hurricanes as China or Japan. And our coasts are exposed not 
just to these storms, but also to earthquakes and tsunamis. 
Dust bowls and wildfires have shaped our history. And as we 
know too well, 70 percent of the world's tornados, and some 90 
percent of the truly damaging ones, occur on our soil.
    Also, because of our global reach, disasters a world away 
calls for a U.S. response. So, if you think of the earthquakes 
in Haiti and Chili, the tsunami in Japan, the floods in 
Pakistan, people are waiting to see what the U.S. will do.
    Our current disaster preparedness, though good, and though 
improving, remains far from ideal. Warnings are more accurate 
and timely, but, in that last mile, where they struggle to 
reach those who are actually in harm's way, they are all too 
often lost or garbled or misunderstood. Compromises in land use 
and building codes mean that our homes aren't always as safe as 
we might hope. Eighty-five percent of the small businesses that 
close their doors because of disaster never reopen. And the 
dollar loss from property--the dollar amount of property loss 
and business disruption is growing faster than GDP. Virtually 
every disaster quickly becomes a public health emergency.
    We can do better if we take the following steps. Number 
one, we must maintain our essential warning systems. That means 
funding for the day-to-day operations of those systems, but 
also funding for modernization. And it also means funding 
continuity from year to year. These are programs that cannot be 
shut down for a year and then restarted. The biggest gap right 
now is the--NOAA's JPSS satellite system, which needs an 
additional $800 million this Fiscal Year in order to avoid an 
unacceptable gap in satellite coverage beginning no later than 
2017. That gap will throw back our warning capability to what 
we had 20 years ago.
    It's not just enough to bring meteorology and engineering 
to the problem, we also have to bring social science. Pushing 
that warning the last mile, we need to hear from those who 
study communication in a disciplined way. We need to hear from 
sociologists.
    Another example: The title of this hearing asks the 
question, ``Are investments paying off?'' And the answer is, 
``We think so, but we don't know how much.'' If they were 
really investments, we would have a much better idea of the 
return on those investments. That requires that we invest a 
little bit in economic analysis that we're not doing.
    When it comes to natural disasters, we should also do 
better at learning from experience. We do this in aviation. 
When the wing falls off the airplane, we noodle around the 
wreckage site until we see what happens, and we go and we fix 
it. We lack an agency like the NTSB to perform that function 
for natural hazards. And the result is that we rebuild as 
before. Because we do that, we condemn future generations to a 
great deal of unnecessary pain and suffering.
    All of this requires that government and the private sector 
work in partnership, they work collaboratively and effectively 
at all levels: NOAA with the aerospace firms that build those 
satellites and ground systems; the weather service with the 
broadcasters. I actually think that one's going quite well. At 
the local level, the private sector and local government need 
to work together to prepare communities. The Academy just 
issued a report on that subject, which is in your notes. We 
need to bring in the insurance industry to provide incentives 
for better land use and building codes. And finally, we need to 
support wonderful private-sector efforts like the Business 
Civic Leadership Council of the Chamber of Commerce and their 
work in hazard mitigation and disaster relief.
    We--as we're blowing up levees in the Midwest, we need to 
explore no-adverse-impact policies for flood and other hazards. 
And we also need to track our progress and keep score.
    I've got three concluding points and then I'm done. First, 
the Department of Commerce is a suitable agency home for many 
of these notions. Second, we shouldn't look at this just 
domestically. These measures can build international goodwill 
and international markets for U.S. products and services. And 
finally, we should not forget the impact of these measures on 
jobs, protecting jobs that Americans already hold by protecting 
their communities and their homes in the face of natural 
hazards, and creating new jobs to serve those emerging 
international markets.
    Thank you, Mr. Chairman. Thank you, Senators.
    [The prepared statement of Dr. Hooke follows:]

Prepared Statement of William H. Hooke, Ph.D., Senior Policy Fellow and 
               Director, American Meteorological Society
    Thank you, Mr. Chairman, Senators, Ladies and Gentlemen.
    Today we grieve for those who were injured, lost their lives, 
families, homes, or jobs because of violent weather in recent days and 
weeks. We can never make them whole. But we can best honor their loss 
and suffering by working together to reduce risks of further tragedy in 
coming years. So thank you for taking time--in the midst of so many 
competing claims on your attention--to convene this conversation on 
disaster preparedness.
    The United States, because of its size and its location, arguably 
bears a unique degree of risk from natural hazards. We suffer as many 
winter storms as Russia or China. As many hurricanes as China or Japan. 
Our coasts are exposed not just to storms but to earthquakes and 
tsunamis. Dust bowls and wildfire have shaped our history. And, as this 
past week reminds us, 70 percent of the world's tornadoes, and some 90 
percent of the truly damaging tornadoes, occur on our soil.
    In addition, because of our global reach, disasters a world away 
call for a U.S. response: earthquakes in Haiti and Chile, a tsunami in 
Japan, floods in Pakistan.
    Our current disaster preparedness, though improving, remains far 
from ideal. Warnings are more accurate and timely, but too often are 
lost, or garbled, or misunderstood, in that ``last mile,'' where they 
struggle to reach those actually in harm's way. Compromises in land use 
and building codes mean our homes aren't always the unassailable 
fortresses we might hope. 85 percent of the small businesses who close 
their doors as a result of disaster never reopen. The dollar amount of 
property loss and business disruption is growing faster than GDP. And 
virtually every disaster very quickly also becomes a public health 
emergency.
    We can and should do better. We need to:

  <bullet> Step up funding and maintain the year-to-year continuity of 
        funding, for day-to-day operations, and continuing 
        modernization of, essential warning systems. Today, most 
        specifically and urgently, some $800M in additional funding is 
        needed for NOAA's Joint Polar Satellite System (JPSS), in this 
        fiscal year (FY 2011), to avoid an unacceptable gap in 
        satellite coverage beginning no later than 2017.\1\ To avoid a 
        repetition of this oversight in future years, it would help if 
        the Office of Science and Technology Policy would develop a 
        policy with respect to long-term observations of and study of 
        the Earth. We need this, because we will need to make short-
        term observations forever; and we need this because the Earth, 
        the atmosphere, and the oceans vary on time scales of decades 
        and centuries.
---------------------------------------------------------------------------
    \1\ See, e.g., http://www.aviationweek.com/aw/generic/
story.jsp?id=news/asd/2011/04/07/07.
xml&channel=space.

  <bullet> Bring to bear not just meteorology and engineering, but also 
        social science. Pushing that warning message the last mile? 
        Helping those in danger to save themselves? Here's where we 
        need advice from communication scientists and sociologists. The 
        title of this hearing asks the question: Are investments paying 
        off? We think so, but we don't know how much. Toward this end, 
        more economic analysis of benefits and value would sure be 
        useful. And more funding support for the supporting social 
        science (amounting to no more than ``sales tax'' on the much 
        larger engineering and natural-science outlays) is needed to 
---------------------------------------------------------------------------
        build our capacity for such analysis.

  <bullet> Learn from experience. We do this in aviation. The National 
        Transportation Safety Board plays a key role. Absent a similar 
        agency to study loss of life, property, and economic activity 
        to natural hazards, we do the opposite of learn from 
        experience; we ``rebuild as before.'' \2\ This condemns future 
        generations to pain and suffering down the road.
---------------------------------------------------------------------------
    \2\ Eosco, Gina M., William H. Hooke, 2006: Coping With Hurricanes. 
Bull. Amer. Meteor. Soc., 87, 751-753.

  <bullet> Exercise public-private partnerships: To build America's 
        disaster preparedness requires that government and the private 
        sector collaborate effectively at all levels: (1) NOAA with the 
        aerospace firms who build NOAA satellites and ground systems; 
        (2) NWS with the broadcasters and private firms who deliver 
        weather warnings (this is actually working rather well); \3\ 
        (3) at the local level to build community disaster resilience; 
        \4\ (4) bringing in insurers to provide incentives for better 
        land use and building codes; and finally (5) with respect to 
        private-sector role in hazard mitigation and disaster relief, 
        as so well exemplified by organizations such as the Business 
        Civic Leadership Council of the U.S. Chamber of Commerce.
---------------------------------------------------------------------------
    \3\ Fair Weather: Effective partnerships in weather and climate 
services NAS/NRC BASC (2003) http://www.nap.edu/
openbook.php?isbn=0309087465.
    \4\ Building Community Disaster Resilience through Private-Public 
Collaboration, NAS/NRC BESR (2010) http://www.nap.edu/
catalog.php?record_id=13028.

  <bullet> Explore No-Adverse Impact Policies for flood \5\ and other 
        hazards,\6\ as propounded by the Association of State 
        Floodplain Managers and the newly-formed Natural Hazard 
        Mitigation Association. (This is timely given the legal battle 
        developing on whether to blow up a two-mile section of levees 
        on the Missouri side of the Mississippi River to reduce the 
        threat of flooding on the Illinois side.) \7\
---------------------------------------------------------------------------
    \5\ As suggested by the Association of State Floodplain Managers: 
http://www.floods.org/
index.asp?menuID=460&firstlevelmenuID=187&siteID=1.
    \6\ Natural Hazard Mitigation Association: http://www.nhma.info/.
    \7\ http://www.washingtonpost.com/national/mayor-orders-evacuation-
of-ill-town-as-river-water
-bubbles-up-behind-levee-rain-adds-to-woes/2011/05/01/
AFOexTQF_story.html.

  <bullet> Track progress/keep score. Over a decade ago, an NAS/NRC 
        study recommended that the Department of Commerce maintain 
        statistics on U.S. losses to natural hazards.\8\ We give 
        priority to what we measure. That proposal should be 
        implemented.
---------------------------------------------------------------------------
    \8\ The Impacts of Natural Disasters: A framework for loss 
estimation. NAS/NRC CGER (1999) http://www.nap.edu/
openbook.php?isbn=0309063949&page=27.

---------------------------------------------------------------------------
    Three concluding points:

    First, as we consider these and similar policy options, we might 
contemplate the U.S. Department of Commerce as a suitable agency home. 
The Department already has many of the needed pieces in place. Second, 
in looking at the benefits of these measures we should keep in mind 
that they each embody potential for building international goodwill and 
international markets for U.S. products and services. And finally, we 
should not forget the impact of each of these measures on jobs--the 
preservation of jobs and our domestic economy in the face of natural 
hazards, and the creation of jobs to serve those emerging international 
markets.
    Thank you, Mr. Chairman, Senators, Ladies and Gentlemen.

    The Chairman. Thank you very much.
    Mr. Ryan, we welcome you.

  STATEMENT OF ROBERT RYAN, SENIOR METEOROLOGIST, ABC7/WJLA-TV

    Mr. Ryan. Thank you very much, Mr. Chairman, for the 
opportunity--there we are----
    The Chairman. You're meant to know that, Mr. Ryan.
    Mr. Ryan. Thank you. Usually, it's done for me, so--
[Laughter.]
    Mr. Ryan. But, this is a nonunion shop, so I think----
    Thank you, Mr. Chairman, for the opportunity to present 
some views on the topic of Federal investments and disaster 
preparedness.
    I'm speaking, first of all, only for myself and not my 
employer, Albritton Communications.
    I've served as President of the American Meteorological 
Society, a distinct pleasure, as well as on two National 
Research Council committees, which wrote two reports to NOAA 
and the National Weather Service on effective partnerships, the 
Fair Weather report, which has advanced quite a bit of the 
entire enterprise, as well as the recent report, Completing the 
Forecast, characterizing and communicating uncertainty for 
better decisionmaking using weather and climate forecasts.
    The short answer, I believe, is most definitely yes. 
Federal investments in disaster preparedness in paying--are 
paying off. And as we have so recently seen, the United 
States--and as Bill mentioned--has more severe weather and more 
weather-related disasters than any other country. As example, 
90 percent of the strong and life-threatening tornados in the 
world occur in the United States. The science of meteorology 
has made remarkable advances in the last 50 years, thanks, in 
large part, due to the Federal investment in knowing that 
better forecasts and advanced warning before weather 
emergencies are of tremendous public and economic benefit to 
all of us.
    And indeed, I would argue that if we all agree that one of 
the fundamental purposes of government is protection of the 
life and property of its citizens, few organizations do that 
each and every day more than our Nation's weather services, 
both public--NOAA and the National Weather Service--and 
private-sector companies and local broadcasters.
    Many may ask: After all the investments that we have made 
in advancing the science of weather and weather forecasting--
satellites, Doppler radars, supercomputers--how could so many 
lives be lost in the terrible tornado outbreak of last week? 
More than 90 percent of last week's tornados were warned on 
with an average lead time of 25 minutes--something impossible, 
years ago. But, more than--we had more than EF--11 EF4 tornados 
and 2 EF5 tornados in a single day, more than any day in 
history. And without proper protection in storm cellars, 
reinforced safe rooms, or protected areas in basements, it was 
impossible to survive tornados with winds of 160 to more than 
200 miles an hour.
    Jeff Masters, who is at the University of Michigan and has 
written a blog, estimated that if we had the same outbreak 50 
years ago, before Doppler and before all of the investments, 
the loss of life would have been in the thousands from that 
event.
    The current weather forecasting warning communications 
system is a shared enterprise. Sometimes the entire mix--
Federal, public, private, nongovernmental organizations, 
emergency management, the community, and the media--they're 
called ``the weather enterprise'' sometimes some of us refer to 
it. And indeed, there are such early warnings and communication 
of these warnings and alerts to the public through every means, 
from NOAA Weather Radio to radio, new digital medium, and 
especially local news broadcasts, which were on the air 
continuously last week, tracking tornados with both National 
Weather Service and local TV station Dopplers. That allowed so 
many people as possible to survive what is probably once-in-a-
100-year natural disaster. The system worked. And the shared 
partnership of Federal employees at the National Weather 
Service, local government officials, and emergency managers, 
and, critically, the broadcast community and local broadcast 
meteorologists, helped more than 99 percent of our fellow 
citizens in the path of killer tornados survive what everyone 
hopes is certainly a once-in-a-lifetime experience.
    Today's forecasts are really an end-to-end process that 
every more--the ever more accurate weather forecasts and 
climate forecasts--the communication of the forecast 
information to the public and other users.
    And finally, the decisionmaking using that information by 
the public and users. If we have a 100-percent accurate weather 
forecast which may not be effectively communicated and then 
results in a poor or bad decision, we have failed. The 100-
percent-correct forecast is of little use if the wrong weather 
or climate-related decision is made. Effective communication is 
as essential as the correct weather forecast. And in the case 
of weather emergencies, the media and over-the-air broadcasters 
play a vital role in communication of weather forecasts and 
warnings.
    My fellow broadcasters in Mississippi, Georgia, Texas, West 
Virginia, and Alabama, in the last few weeks, were on the air 
continuously to keep the public informed, communicating the 
warnings from our colleagues at the National Weather Service, 
helping the community watching and listening, to make the best 
life-saving decisions.
    The last--however, the last stop on our end-to-end weather 
forecast process is the decision by the public end user in 
weather emergencies. And that's what I do. The local 
broadcaster, the local broadcast meteorologist, known in the 
community they serve, are still using traditional methods of 
communicating via over-the-air live radio, television 
broadcasts during local newscasts, and continuously, as we saw 
last week, during weather disasters, is the trusted source for 
the public to make a decision.
    And just to wrap up, my Albritton colleague, James Spann, 
in Alabama, during this terrible, terrible outbreak, was on the 
air using all of the assets at his command, from the public 
radar to spotters and over-the-air continuously. And he has 
received hundreds and hundreds of thank-yous for those efforts 
in pinpointing the terrible outbreak of tornados, helping 
people make the proper decision that saved their lives. And 
that is where we are all heading.
    Yes, the system is working. The way we communicate weather 
information and forecasts is expanding every day. The Federal 
investment in our weather enterprise is vital. Efforts to stop 
funding the new Joint Polar Satellite System, as we have just 
heard, will degrade our ability to adequately forecast and warn 
of the next potential weather disaster.
    Certainly, we do need to bring social science expertise 
into our shared enterprise and learn how to better--how we can 
better use these expertise, in every new and old media, to 
better communicate what we know and what actions should be 
taken, and better help the public make the best life-saving 
decision, rather than life-risking decision, in the face of the 
next weather emergency.
    With continuing Federal support for the core structure of 
this country's great weather enterprise, what we have 
accomplished together in the advance of the service of the 
science I love to the public, the country, and the world will 
continue, and continue to be a shining example of how 
government meets its key role of the protection of the lives 
and property of its citizens.
    Thank you very much, Mr. Chairman. I'd be happy----
    The Chairman. Thank you, sir.
    Mr. Ryan.--to answer questions later.
    [The prepared statement of Mr. Ryan follows:]

 Prepared Statement of Robert Ryan, Senior Meteorologist, ABC7/WJLA-TV
    Thank you, Chairman Rockefeller, for the opportunity to present my 
thoughts on the importance of accurate weather forecasting, information 
and services during emergencies. Examining the current state of how 
Federal agencies and Federal investments in weather and climate 
research, forecasting and communication are doing, is extremely timely 
after the tragic tornado outbreak last week. I have had a brief time to 
prepare this document so I will present my thoughts as a number of 
items.

        1. The science of meteorology has made tremendous progress in 
        the last 50 years in understanding, observing and forecasting 
        weather events from the next 10 minutes to storms that may be 
        days away to general patterns weeks and months away.

        2. The investment in the hardware to observe weather and 
        climate from traditional ground instruments to satellites and 
        Doppler radars, coupled with the investment in fundamental 
        research and understanding of weather and climate along with 
        the investment in so-called super computers to make every more 
        accurate forecasts has saved lives and been of tremendous 
        economic benefit to the country.

        3. The United States has more severe weather than any other 
        country, 1200 tornadoes, 5000 floods, 10,000 thunderstorms each 
        year and 14 Billion dollars in weather related losses.

        4. The organization that might be called a ``Weather 
        Enterprise'' of public, private and academic sectors has worked 
        cooperatively with shared goals of creating an integrated 
        weather and climate information, forecast and communication 
        system that serves all sectors well. This shared observational, 
        forecast, communication ``enterprise'' with Federal agencies as 
        the lead, is unique to the United States and a great example to 
        other countries of true government--private sector partnerships 
        that benefit all citizens.

        5. All providers and users of weather information whether to 
        the public or to private sector clients or research 
        institutions, depend on the Federal Government to be the open 
        source and backbone of the information, data, model outputs, 
        warnings and forecasts we all use. No meteorologist can make an 
        accurate forecast, or deliver timely warnings to clients or 
        emergency managers or the public without the core information, 
        warnings, model data etc. openly provided by the National 
        Weather Service, NOAA, NASA, FAA, EPA and other Federal 
        agencies. This partnership with NOAA and NWS being the lead 
        Federal agencies of open operational weather information and 
        data is vital and must continue for effective communication of 
        warnings by traditional and new media to the public.

        6. Federal weather warning systems now in place such as NOAA 
        Weather Radio are vital to broadcasters being able to 
        communicate weather warnings to the public.

        7. Cooperation between the National Weather Service and 
        broadcasters during weather emergencies has been excellent. 
        Federal agencies such as NOAA and the National Weather Service 
        regularly reach out to broadcasters through workshops, various 
        professional conferences and joint meetings with the emergency 
        management community to solicit feedback and exchange ideas and 
        information.

        8. The recent tragic tornado outbreak (April 27, 2011) 
        generated almost 300 tornadoes. About 90 percent of these 
        tornadoes were correctly warned on. The average warning lead-
        time was 24 minutes but EF4-EF5 tornadoes, with winds speeds of 
        200 mph or higher are almost unsurviveable above ground. 
        Preliminary estimates are that there may have been 4 or 5 EF4 
        or EF5 tornadoes on April 27, including the tornado that moved 
        directly through Tuscaloosa, Alabama, a metropolitan area of 
        more than 100,000.

        9. The weather/climate prediction should be thought of as an 
        end-to-end process. That is the actual forecast and or warning, 
        the communication of the forecast and warning and the decision 
        made by the user of that forecast or warning. If a 100 percent 
        correct forecast has been made and communicated, but the wrong 
        decision has been made the forecast/warning process has failed. 
        A tragic example this link: http://news.yahoo.com/s//nm/
        20110430/us_nm/us_usa_wea
        ther_shelter.

        Suggestions for Improvements to Federal Services and Programs

        10. Items to improvements in Federal programs to support 
        ``timely and accurate forecast'' include immediately restoring 
        funding for the joint polar satellite system (JPSS) program. 
        Some may argue that loss of polar orbiting data will not 
        degrade our current weather/climate observing and forecasting 
        skill . . . but, what if they are wrong! Polar and 
        geostationary weather satellites are an integral and critical 
        core element of providing very accurate weather forecasts and 
        life saving planning and decisionmaking for weather and other 
        natural disasters from tornadoes and hurricanes to fires, 
        drought, dangerous air quality and oil spills.

        11. Integration of social science expertise into our core 
        physical science institutions of observing, forecasting and 
        communicating weather forecasts and warnings can help improve 
        the critical decisionmaking element of the end-to-end forecast 
        process mentioned in item 9 above. Each of us feels we can 
        improve communication to better help weather forecast/warning 
        decisionmakers, including the general public, make better 
        decisions especially during rare life threatening extreme 
        weather events such as the recent tornado outbreak. The core 
        weather enterprise Federal agency NOAA's National Weather 
        Service employs one social scientist-an economist. More 
        understanding of how the public interprets and acts on weather 
        warnings and statements about imminent natural disasters is 
        needed. The use of customer satisfaction surveys (CSS) as 
        required of Federal agencies to show approval or 
        ``satisfaction'' with forecast products is useful. But 
        fundamental research of how forecasts from color coded warnings 
        to simple descriptions to the needed wording for correct 
        decisionmaking before potential weather disasters, such as 
        Katrina, snow storms, blizzards and tornadoes is very much 
        needed. The next significant improvement in the value of 
        weather forecasts will come from better communication and 
        decisionmaking as much as continued advance in the accuracy of 
        the actual forecast.

    Mr. Chairman, thank you for the opportunity to present some 
thoughts I hope are helpful to you and the Committee. All of us in the 
weather and climate community feel the Federal investments are paying 
off. But as we know forecasting the weather will never be 100 percent 
accurate, we can and will work cooperatively to effectively communicate 
with the public and strive for 100 percent accurate forecasts and also 
100 percent best decisionmaking.

    The Chairman. Absolutely.
    Dr. Anne Kiremidjian.

      STATEMENT OF ANNE S. KIREMIDJIAN, Ph.D., PROFESSOR,

       DEPARTMENT OF CIVIL AND ENVIRONMENTAL ENGINEERING,

         STANFORD UNIVERSITY ON BEHALF OF THE AMERICAN

                   SOCIETY OF CIVIL ENGINEERS

    Dr. Kiremidjian. Mr.--thank you--Mr. Chairman, members of 
the Committee, it is an honor for me to be here today and 
representing the American Society of Civil Engineers.
    I've been a Professor at Stanford for 38 years, 
specializing in earthquake engineering, and most of my research 
has been in earthquake hazard and risk analysis and development 
of wireless structural monitoring systems. Therefore, my 
comments will be focused primarily on earthquakes, but they 
easily apply to many of the other hazards.
    The question that you had put in front of us is whether our 
investments in earthquake hazard and other natural disasters 
have--are worth it--have been paying off. The short answer, 
just like Mr. Ryan said, is yes. And the public is a lot safer 
today because of all the activities that the National 
Earthquake Hazard Reduction Program has been involved in.
    We have made great strides in understanding the 
geosciences, the behavior of our buildings and other 
infrastructure when subjected to severe earthquakes, how people 
and economies are affected by earthquakes, and how we should 
mitigate and upgrade our structures to prevent and minimize 
future disasters. However, we are not there yet, not even 
close; the reason being that, with every earthquake, we see and 
learn how much we don't know. To continue--we continue to be 
humbled by every single earthquake event. And we find something 
new and different that we didn't know before.
    The last earthquake, in Japan, the earthquake of March 11 
of this year, has indeed shown us what a truly devastating 
event can do to a very large community. Our laboratory tests, 
our sophisticated numerical models, cannot replicate, cannot 
produce, and cannot teach us what such a large earthquake can 
do. What we can do, however, we can prepare to take 
measurements and study these events, which enable us to greatly 
improve and enhance our models and technologies in order to 
apply them in a systematic way and enable us to prevent future 
losses.
    Europe has also played a very important role in mitigation 
activities. I happened to be involved in a study, in 2005, 
where we looked at the effect of mitigation and how our--a 
dollar--each dollar that we spend is paying off. The study was 
conducted by the National Institute of Building Sciences. There 
were several conclusions, but the key one, the--probably the 
most important one, was that, for every dollar spent in 
mitigation, we are saving $4 of--in future losses.
    With recent budget cuts, and with states and communities 
getting deeper in debt, we have seen major reduction and in--
sadly enough, in many places, outright elimination of 
mitigation programs. The result will be devastating. If 
future--if we reduce our research in mitigation budgets, we 
will not be benefiting from the current advances, and we will 
be putting our communities at even greater risk.
    Moreover, we need to invest funds specifically to study the 
great Tohoku earthquake of March 11. This is the first time 
that a magnitude-9 earthquake has hit a country that has a 
building and infrastructure that's very similar to ours, that 
has design practices that are very similar to ours, that has a 
general social and economic environments similar to ours, and 
where we are seeing, for the first time, and have evidences and 
measurements from the largest tsunami we have observed. Some of 
the tsunami waves were as high as 37.8 meters, close to--almost 
100 feet, if not higher.
    The lessons to be learned are enormous. Unprecedented. I 
should mention that, after the 1995 Kobe, Japan, earthquake, 
Japan invested more than a billion dollars in all kinds of 
instrumentation. The data has been gathered, waiting to be 
analyzed. It is our duty to participate in these activities. We 
are fortunate to have forged excellent alliances with our 
Japanese colleagues. And this gives us an opportunity to really 
study and test and improve our models, our mitigation 
practices, and understand what we need to do to prevent future 
disasters.
    You might ask, after spending all this money over the 
years, ``Why are our structures and our communities still at 
high risk?'' There are at least two answers. And I will bring 
the two most important answers why.
    The first one is, our infrastructure--all of our 
structures--a majority of them, probably about 80 percent of 
them--were built prior to current design practices. Moreover, 
we have allowed our infrastructure to greatly deteriorate, 
making the problem even worse.
    The second problem is that earthquake engineering and 
earthquake-related sciences is relatively young. We have been 
working on this problem for the last 30 years, but with every 
earthquake, we have learned more and more.
    In order for us to start addressing some of the questions, 
we need to continue in a systematic manner. Let me give you one 
example. After the 1994 Northridge earthquake, what we observed 
was that, particularly, businesses required their facilities to 
continue functioning in a manner where their business will not 
be interrupted. Our design practices up until then had been to 
design strictly for life safety. We didn't worry how much 
damage there was to the structure, as long as the structure 
didn't collapse and kill people. And indeed, we have done very 
well in that respect, looking at the number of casualties. What 
we have--what we understand now is that, in order to have 
economic viability, we need to have business continuation. And 
our critical infrastructure needs to function immediately after 
an earthquake.
    ASCE has been at the center in the design and development 
of all of these mitigation activities.
    And I see that I'm out of time. I will just conclude by 
saying something that we have said over and over again. We 
cannot prevent earthquakes from happening. However, what we can 
do--through our research, through our mitigation activities, we 
can greatly reduce the consequences from such events and 
prevent them from becoming a disaster.
    Thank you very much, Mr. Chairman and Senators.
    [The prepared statement of Dr. Kiremidjian follows:]

Prepared Statement of Anne S. Kiremidjian, Ph.D., Professor, Department 
 of Civil and Environmental Engineering, Stanford University on Behalf 
               of the American Society of Civil Engineers
    Mr. Chairman and members of the Committee: I am Anne Kiremidjian 
and I am testifying on behalf of the American Society of Civil 
Engineers (ASCE). During my forty years of involvement with ASCE, I 
have served as Chair of various committees and most recently as Chair 
of the Executive Committee on Disaster Reduction and Management (CDRM) 
and Chair of the Executive Committee of the Technical Council on 
Lifeline Earthquake Engineering (TCLEE). As professor of structural 
engineering at Stanford, I have been the direct beneficiary of the 
funding to the National Science Foundation (NSF), U.S. Geological 
Survey (USGS), National Institute of Standards and Technology (NIST) 
and the Federal Emergency Management Administration (FEMA). These 
organizations have supported my research, educational and business 
endeavors. In addition, I have served on the board of directors, 
institutional boards and external advisory board to the various 
research centers and consortia on earthquake engineering research. Over 
the years I have also actively participated in committees and workshops 
that have set the standard for research and development related to 
earthquake engineering and disaster mitigation.
    My research focus over the past thirty-eight years has been on the 
development of earthquake hazard and risk assessment methodologies, and 
wireless structural monitoring sensors and systems for rapid structural 
damage assessment from normal loads and extreme loads such as those 
from large earthquakes. My research has been greatly enhanced by the 
numerous first-hand observations and investigations of the damage, 
social and economic consequences following major earthquakes around the 
world.
    Founded in 1852, ASCE is our Nation's oldest civil engineering 
organization representing more than 140,000 civil engineers in private 
practice, government, industry and academia. ASCE is a 501(c)(3) 
nonprofit educational and professional society. Research in civil 
engineering aims to advance the quality of life of individuals and our 
society by building innovative structures and infrastructure and by 
providing essential service with minimal adverse effect on the 
environment by applying the principles of sustainable development and 
disaster resilience.
    ASCE is pleased to offer this testimony before the U.S. Senate 
Committee on Commerce, Science, and Transportation on the hearing: 
``America's Natural Disaster Preparedness: Are Federal Investments 
Paying Off?''
Have Our Federal Dollars Been Paid Off?
    Since the establishment of the National Earthquake Hazard Reduction 
Program in 1977, we have made tremendous strides toward our 
understanding of the earthquake phenomenon, its effects on the built 
environment, and on the social and economic systems that may be 
affected by the occurrence of a major earthquake. To site a few 
examples, the ground shaking maps produced by USGS are extensively used 
in building and other infrastructure design and assessment; the three 
earthquake engineering centers (the Pacific Earthquake Engineering 
Research Center (PEER), the Multi-hazard Center on Earthquake 
Engineering Research (MCEER), and the Mid-America Research Center (MAE) 
have each focused on development of models and technologies for their 
respective geographic regions of interest; they have changed the design 
paradigm from the traditional code-based prescriptive approach to a 
performance based approach where the design of building and other 
infrastructure is expected to achieve performance goals geared toward 
not only life safety but also toward functionality and rapid recovery 
after an earthquake event; Over the past 10 years, the Network for 
Earthquake Engineering Simulation (NEES) has performed the systematic 
testing of scaled structures and structural components enabling 
validation of theoretical models; hospitals and schools are being 
upgraded or completely reconstructed to meet higher performance as a 
result of our increased understanding of the needs following a major 
earthquake; local governments perform periodic emergency response 
drills in the attempt to identify gaps in their emergency plans; 
tsunami evacuation routes have been identified and marked to aid in the 
event of a tsunami; technologies such as base isolation systems, 
various damping and energy dissipative devices to reduce damage to 
structures, wireless structural monitoring sensing systems, nano-level 
and bio-inspired sensing devices for more robust damage detection, and 
remote sensing techniques are being developed for rapid information 
retrieval, damage assessment and control of structures; similarly rapid 
mapping dissemination following an event are now made available after 
every earthquake in California, as the shake maps produced by USGS, and 
can be used by local and state governments in their early stages of 
planning for the response and recovery operations, the multi-hazard 
loss estimation software tool HAZ-US developed by FEMA is also being 
used by state, local and the government to estimate potential losses 
for scenario events; and so on. By no means is this intended to be a 
comprehensive list and I am sure to have missed some key developments 
and innovations in this brief summary.
    In a 2005 study supported by FEMA and the U.S. Department of 
Homeland Security, the Multihazard Mitigation Council (MMC) of the 
National Institute of Building Sciences (NIBS) conducted a study 
``Natural Hazards Mitigation Saves: An Independent Study to Assess the 
Future Savings from Mitigation Activities'' (http://www.fema.gov). One 
of the main conclusions from this study was that, for every dollar 
spent by FEMA in mitigation activities during the period from 1993 to 
2003, society saved $4 on the average. Moreover, the mitigation 
activities ``resulted in significant benefits to society as whole'' and 
``represented significant potential savings to the Federal treasury in 
terms of future increased tax revenues and reduced hazard-related 
expenditures.'' Mitigation is indeed one of the most effective ways of 
reducing the consequences of large earthquakes and other natural 
occurrences and potentially preventing them from becoming disasters.
    The Tohoku, Japan earthquake of March 11, 2011, combined with the 
tsunami and damage to the Fukushima Daichi Nuclear Power plant resulted 
in perhaps one of the worst natural disaster we have seen during our 
lifetimes. Preliminary estimates of the total losses are approximately 
$600B (S&P) of which $300B are attributed to the earthquake shaking and 
the tsunami. The tsunami waves were estimated to range from 9 m to 37.9 
m in height causing the majority of building and other infrastructure 
destruction with 13,591 confirmed deaths, 4,916 injuries and 14,497 
missing. Early damage reports, however, are indicating that structures 
built to meet current design criteria performed overall very well. 
Damage has been primarily to older buildings and other infrastructure 
that were built with much less stringent seismic design criteria. Like 
the United States, and perhaps even more so, Japan has had a long 
tradition to invest in earthquake research and development. We have 
also been the beneficiary of the extensive funding by the Japanese 
government following the 1995 Kobe, Japan earthquake which spent more 
than $100M in seismic instrumentation both for ground motion and 
building performance monitoring and more than $500M to build the 
world's largest shake table enabling full scale testing of structures 
subjected to earthquake motions. Perhaps it is premature to make a 
conclusion based on these early observations, but one might say that 
the advances made toward current design practices are paying off.
Can We Prevent Future Natural Disasters?
    No.
Why Not?
    An earthquake does not become a disaster if it occurs in an 
unpopulated area. It becomes a disaster when it affects densely built 
and populated communities that are not prepared to cope with the forces 
of strong and great earthquakes. Here are some of the reasons why we 
find it difficult to prevent future disasters from earthquakes:

  <bullet> We are still in the process of understanding the true 
        effects of strong earthquakes--ground shaking, ground 
        deformations and tsunamis--because large earthquakes such as 
        the Tohoku, Japan earthquake of March 11, 2011, occur rarely, 
        we have not been able to obtain direct information on their 
        consequences;

  <bullet> The performance of various ground conditions, structures and 
        infrastructure components is only now beginning to be 
        understood with much remaining to be investigated and 
        evaluated;

  <bullet> Many technologies that can prove to be useful in disaster 
        response and recovery are only in the form of prototypes, 
        untested in real situations;

  <bullet> Majority of structures and infrastructure systems were built 
        before current design methods were developed;

  <bullet> Our structures, lifelines and transportation systems are old 
        and deteriorating;

  <bullet> Many earthquake prone areas in the U.S. did not adopt 
        seismic design until recently--e.g. Oregon adopted seismic 
        requirements in 1994;

  <bullet> Great earthquakes affect vast geographic regions--e.g., a 
        repeat of the 1906 San Francisco earthquake would affect all 
        cities and towns spanning a 400+ km segment from San Juan 
        Bautista to Eureka; an earthquake of moment magnitude 9 on the 
        Cascadia subduction zone will affect all communities along the 
        Oregon and Washington coastline;

  <bullet> Critical facilities are being upgraded (e.g, hospitals, 
        police and fire stations) but local and state governments lack 
        the resources to address the problems more aggressively;

  <bullet> Key industrial facilities are potentially vulnerable but at 
        present it is up to the owners to evaluate their performance--
        failure of these facilities can have a serious economic impact 
        on a community and the rest of the country;

  <bullet> Local and state governments lack the resources to evaluate 
        their earthquake risk in order to develop and implement 
        disaster mitigation policies--e.g., the State of Oregon had 
        undertaken a plan to identify vertical evacuation structures 
        for tsunami refuge; these activities have stopped due to budget 
        cuts.

    Funds are needed for fundamental and applied research that 
encompasses the geosciences, geotechnical engineering, structural and 
infrastructure engineering, social and economic sciences, and policy 
decisionmaking. Recent strong earthquakes have shown that we are only 
now beginning to understand the phenomenon and its consequences. As an 
emerging field it requires extensive research and development that can 
only be achieved through the dedicated efforts of its professionals 
with appropriate funding. Community resilience to major earthquakes can 
only be achieved through the implementation of findings from the 
research and development and through appropriate mitigation and 
preparedness actions.
Where Are the Greatest Gaps?
    A comprehensive approach for earthquake related research and 
development that takes further steps toward community resilience is 
laid out in the 2009-2013 NEHRP Strategic Plan. In addition, the 
National Research Council of the National Academies (NRC 2011) has 
released a study that recommends a road map of national needs in 
research, knowledge transfer, implementation, and outreach that will 
provide the tools needed to implement the NEHRP Strategic Plan (Poland, 
2011). Key areas that need extensive investigation include:

  <bullet> Worldwide monitoring and data gathering and interpretive 
        tools:

    <bullet> Instrumentation for assessing the energy release and 
            variation of intensity of strong shaking of earthquakes;

    <bullet> Instrumentation of buildings and other infrastructure 
            components;

    <bullet> Methods and tools for data assessment and interpretation 
            leading to useful information.

  <bullet> Framework for resilience in terms of performance goals that 
        consider communities as systems of structures, lifelines, 
        people, economics and governments, and their interdependencies.

  <bullet> Social science research to quantify the role of 
        improvisation and adaptation, how decisions are made at all 
        levels and the need for rehabilitation.

  <bullet> Development of Performance-Based Earthquake Engineering 
        (PBEE) design tools to enable rapid and widespread adaptation 
        of advanced design methods.

  <bullet> Development of new technologies and adaptation of existing 
        technologies for pre-disaster assessment and for rapid response 
        and post disaster evaluation.

    The recent earthquakes of February 22 and 25, 2011, in 
Christchurch, New Zealand, and the great magnitude 9 earthquake of 
March 11, 2011, in Tohoku, Japan present an unprecedented opportunity 
to study their effects to communities, geographic exposure and design 
practices that are the closest to those in the U.S. The extensive 
instrumentation placed by Japan prior to the earthquake has provided a 
wealth of new information that needs to be investigated in 
collaboration with our Japanese colleagues. The social, economic and 
policy implications from the earthquake and tsunami are unlike any 
other event we have seen during our short history of earthquake 
research. It is imperative that funds be allocated to study these 
earthquakes and use the lessons to greatly enhance the resilience of 
our communities to large earthquakes.
Summary
    In conclusion, ASCE plays critical role in the research, 
implementation and policies for earthquake hazard and risk mitigation 
leading to resilient communities. The activities can be achieved 
through continued support of the National Earthquake Hazards Reduction 
Program by focusing on the specific goals mapped in the Program's 
Strategic Plan. Funding for research on the Tohoku 2011 earthquake 
presents a unique and long-awaited opportunity to study the effects of 
a truly great earthquake on a community that most resembles our.
    Thank you for the opportunity to present our views. I would be 
happy to answer questions you might have and to provide the Committee 
with further information.
References
    PEER 2011--Tohoku Pacific Ocean Earthquake and Tsunami, Quick 
observations from the PEER/EERI/GEER/Tsunami Field Investigation Team, 
Pacific Earthquake Engineering Research Center, Berkeley California, 
March, 2011; http://peer.berke
ley.edu/news/wp-content/uploads/2011/04/Tohoku-short-interim-
report.pdf.
    S&P--http://www.google.com/hostednews/afp/article/ALeqM5gmH-
wyCANUy4g
3kyZDiZm-Eg7KEw?docId=CNG.12890d5f3796f0ec93e813fed2f0c8c5.701.
    NRC 2011--Achieving National Disaster Resilience through Local, 
Regional and National Activities. Advisory Committee on Earthquake 
Hazard Reduction. www.nehrp.gov, February 2010.
    Strategic Plan for the National Earthquake Hazards Reduction 
Program, Fiscal Years 2009-2013. Interagency Coordinating Committee of 
NEHRP. www.nehrp.gov, October 2008.
    ``Natural Hazards Mitigation Saves: An Independent Study to Assess 
the Future Savings from Mitigation Activities'' (http://www.fema.gov).

    The Chairman. Thank you.
    I call on Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Yes, I just wanted to introduce the 
witness that I invited.
    Dr. Dawson is a Professor for the Institute for 
Computational Engineering and Sciences at my alma mater, the 
University of Texas at Austin. And if I might say, we are also 
the alma mater of the Vice Admiral who led the assault on Osama 
bin Laden. He is a University of Texas graduate. So, there are 
two proud Longhorns in the room.
    [Laughter.]
    Senator Hutchison. I'd just like to point that out.
    And I would like to introduce Dr. Dawson. We're glad you're 
here.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Chairman Rockefeller, for holding this important hearing 
on the effectiveness of Federal investments in disaster preparedness. 
Before we examine this important issue, I would like to express my 
sincere condolences to the victims of the recent natural disasters that 
have devastated both the Southeast and my home state of Texas.
    Just last week tornadoes wreaked havoc on the Southeast, destroying 
communities and resulting in over 350 fatalities, the destruction of 
10,000 homes, and an estimated $2 to $5 billion in property damage.
    In Texas, brave men and women have battled wildfires that that have 
destroyed over 2 million acres, 900 structures, and resulted in the 
loss of life of two firefighters. I continue to strongly urge the 
Administration to grant the State of Texas' request for a Federal 
disaster declaration for the Texas counties that have suffered damage 
from these wildfires.
    Both of these tragedies underscore the importance of Federal 
investments in disaster preparedness and response.
    The World Bank and the United States Geological Survey have 
estimated that economic losses worldwide from natural disasters in the 
1990s could have been reduced by $280 billion if an additional $40 
billion had been spent in preventative measures. Therefore, it is 
vitally important that we spend our Federal research dollars wisely in 
order to reduce both loss of life and economic damages resulting from 
the natural disasters that can have devastating impacts on our Nation.
    Many of our past investments have proven that increased research 
into natural disasters can save lives and reduce property damage. 
Today, we will hear testimony from Dr. Clint Dawson of the Institute 
for Computational Engineering and Sciences at the University of Texas 
at Austin. Dr. Dawson will testify about his experience using 
``Ranger,'' the most powerful computer in the National Science 
Foundation's network of academic high-performance computers, to develop 
storm surge models to aid in the evacuation during Hurricane Ike.
    Dr. Dawson's use of this supercomputer helped save thousands of 
lives and we need to continue to ensure that our scientists and first 
responders have access to the best tools possible to help protect both 
life and property.
    I also look to hearing from our other witnesses to examine the most 
effective way to spend our Federal research dollars to both predict and 
prepare for future natural disasters.
    Thank you again, Mr. Chairman, for holding this important hearing.

        STATEMENT OF PROFESSOR CLINT DAWSON, JOE J. KING

             PROFESSOR OF AEROSPACE ENGINEERING AND

         ENGINEERING MECHANICS, DEPARTMENT OF AEROSPACE

        ENGINEERING AND ENGINEERING MECHANICS, INSTITUTE

          FOR COMPUTATIONAL ENGINEERING AND SCIENCES,

               THE UNIVERSITY OF TEXAS AT AUSTIN

    Dr. Dawson. Thank you, Senator Hutchison.
    Thank you, Mr. Chairman and the members of the Committee, 
for the opportunity to speak with you today.
    My research efforts are focused primarily on modeling and 
simulation of processes in the coastal ocean. The primary 
sources of Federal funding for this work are the National 
Science Foundation, the Department of Defense, and the 
Department of Homeland Security. And my group collaborates with 
a number of researchers at other universities, government 
laboratories, and state agencies. We utilize the computational 
resources of the National Science Foundation Teragrid and the 
Texas Advanced Computing Center, or TACC, at UT Austin. We have 
partnerships with the National Oceanographic and Atmospheric 
Administration, and we use NOAA products and data extensively 
in our research.
    One of the main applications of interest of this research 
is the predictive simulation of storm surges due to hurricanes 
and tropical storms. By predictive simulation, I am referring 
to the development of computer models which can be used in 
real-time to forecast storm surge as hurricanes approach land, 
to study the impacts of historical hurricanes and attempt to 
reproduce actual measurements which were taken during the 
storm, and to study future scenarios, for reasons which I will 
discuss below.
    The computer model that we have developed is called ADCIRC, 
which stands for Advanced Circulation Model. For hurricane 
storm surge simulations, this model takes input from various 
sources and computes water levels and currents driven by 
hurricane-force winds and waves. It's been used to study 
hurricanes for over a decade. It was used extensively in 
forensic studies of Katrina, as part of the Interagency 
Performance Evaluation Task Force, or IPET study.
    As I mentioned, predictive simulation of storm surge can 
fall into three categories: forecasts, forensic studies, and 
future scenarios. Let me elaborate. In forecast mode, our model 
uses supercomputers, such as the Ranger computer at UT Austin, 
to generate a high-resolution forecast, typically within an 
hour. For a storm approaching Texas or Louisiana, this data is 
transmitted to the state operations center and the Texas 
Governor's Division of Emergency Management, which is 
responsible for emergency response, evacuation, search and 
rescue, and other operations.
    In forensic mode, the ADCIRC model is used to analyze 
historical hurricanes. Here we attempt to match the output of 
the model with measured data, as was done for Hurricane 
Katrina. The hindcast studies help validate the predictive 
capabilities of the model, help to build understanding of 
complex physical processes which occur during hurricanes, help 
to quantify the vulnerability of coastal regions to storm 
surge, and can be used to understand the successes or failures 
of various protection systems.
    Hurricane Ike is an interesting example of where new 
physical insight was gained through hindcasting. Ike produced 
a--what we call a ``storm surge forerunner'' of about 6 feet 
along the upper Texas coast 24 hours before landfall. A similar 
phenomenon was documented during the Galveston hurricanes of 
1900 and 1915. Ike was very similar, in track and intensity, to 
these hurricanes. Our forecast model was able to reproduce this 
surge. And now that it's discovered, future forecasts of 
similar storms will be able to predict this surge and to alert 
the public to the possible danger.
    Finally, ADCIRC is run under various hypothetical scenarios 
to facilitate the planning and design of future protection 
systems and to help quantify risk in low-lying areas. Future 
protection systems include soft options, such as wetland 
restoration and restrictions on land-use practices, and hard 
options, such as the construction of seawalls, levees, and 
storm gates.
    Are Federal investments paying off? Government funding of 
fundamental research in coastal ocean modeling can reap 
tremendous benefits by enabling economic activity, promoting 
healthy and sustainable coastal environments, improving the 
safety and well-being of coastal populations, and protecting 
critical infrastructure located on the coast. There are several 
future research directions which are critical to advancing the 
science, and government funding of the computational 
infrastructure available, for example, through the NSF 
Teragrid, and basic research funding in computational science 
and engineering, has paved a path toward revolutionizing the 
modeling of storm surge, and we are already reaping benefits in 
this area. As I mentioned, we are now able to do high-
resolution predictions within the time-frame required by 
emergency managers. This would have been impossible 5 years 
ago.
    Overall, however, in my experience, Federal funding for 
coastal ocean modeling research has been piecemeal across 
different agencies and focused more on the short term rather 
than long term. I would welcome any effort to promote longer-
term, focused, sustained funding of research in this area.
    With respect to storm-surge forecasting, it's my opinion 
that future forecast models should be performed at the highest 
fidelity possible, given the computational resources available 
and the uncertainties inherent in any forecast.
    There's still basic research to be done to improve our 
understanding of winds, waves, and currents, and their 
interactions with coastal features and coastal structures. The 
ability of natural and manmade systems to withstand and 
possibly mitigate surge is not well understood, nor is the 
long-term impact of hurricanes on coastal ecosystems, 
geomorphology, and energy, communication, and transportation 
infrastructure.
    All of these challenges are best met through knowledge and 
experience gained by theoretical research, experiments and 
computation in collaboration that involve multidisciplinary 
teams of investigators with connections to government 
laboratories, state and Federal agencies, and private industry.
    Thank you.
    [The prepared statement of Dr. Dawson follows:]

Prepared Statement of Professor Clint Dawson, Joe J. King Professor of 
    Aerospace Engineering and Engineering Mechanics, Department of 
    Aerospace Engineering and Engineering Mechanics, Institute for 
  Computational Engineering and Sciences, The University of Texas at 
                                 Austin
    Thank you, Mr. Chairman, and members of the Committee for the 
opportunity to speak with you today.
    My name is Clint Dawson. I am a Professor at the University of 
Texas at Austin (UT Austin). I am also the head of a research group 
called the Computational Hydraulics Group which is housed in the 
Institute for Computational Engineering and Sciences at UT Austin. Our 
research efforts are focused primarily on modeling and simulation of 
processes in the coastal ocean. The primary sources of Federal funding 
for this work are the National Science Foundation, the Department of 
Defense and the Department of Homeland Security. My group collaborates 
with a number of researchers at other universities, government 
laboratories and state agencies. These include the University of Notre 
Dame, the University of North Carolina-Chapel Hill, the U.S. Army Corps 
of Engineers Engineer Research and Development Center, and the State of 
Texas Division of Emergency Management. We utilize the computational 
resources of the National Science Foundation Teragrid, and the Texas 
Advanced Computing Center (TACC) at UT Austin. My collaborators have 
partnerships with the National Oceanographic and Atmospheric 
Administration (NOAA) and we use NOAA products and data extensively in 
our research.
    One of the main applications of interest of this research is the 
predictive simulation of storm surges due to hurricanes and tropical 
storms. By ``predictive simulation'' I am referring to the development 
of computer models which can be used in real-time to forecast storm 
surge as hurricanes approach land, to study the impacts of historical 
hurricanes and attempt to reproduce actual measurements which were 
taken during the storm, and to study future scenarios for reasons which 
I will discuss below. The computer model we have developed is called 
ADCIRC, which stands for Advanced Circulation model. For hurricane 
storm surge simulations, ADCIRC takes inputs from various sources and 
computes water levels and currents driven by hurricane force winds and 
waves. ADCIRC has been used to study hurricanes for over a decade. 
ADCIRC was used extensively in forensic studies of Katrina as part of 
the Interagency Performance Evaluation Task Force (IPET) study. ADCIRC 
was able to match the data from this storm incredibly well, 
particularly high-water marks, which are measurements of maximum water 
level taken at various locations. Since 2005, the amount of data 
collected during Gulf storm events has increased substantially, and 
ADCIRC has been used to study several major storms, including Rita, 
Gustav and Ike.
    As I mentioned, predictive simulation of storm surge can fall into 
three categories: forecasts, forensic studies, and future scenarios. 
Let me elaborate.
    In forecast mode, the ADCIRC model uses supercomputers such as the 
Ranger computer at TACC to generate a high resolution forecast 
typically within an hour. These forecast simulations utilize the 
information coming from the National Hurricane Center, and are 
automated so that each time the hurricane forecast is updated, new 
storm surge predictions are generated. For a storm approaching Texas or 
Louisiana, this data is transmitted to the State Operations Center in 
the Texas Governor's Division of Emergency Management, which is 
responsible for emergency response, evacuation, search and rescue, and 
other operations. We work closely in this regard with Dr. Gordon Wells, 
who analyzes the results of forecast models to assist decisionmakers in 
the State Operations Center.
    In forensic mode, the ADCIRC model is used to analyze historical 
hurricanes. Here we attempt to match the output of the model with 
measured data, as was done for Hurricane Katrina. These hindcast 
studies help validate the predictive capabilities of the model, help to 
build understanding of complex physical processes which occur during 
hurricanes, help to quantify the vulnerability of coastal regions to 
storm surge, and can be used to understand the success or failure of 
various protection systems. Hurricane Ike is a very interesting example 
where new physical insight has been gained through hindcasting. Ike 
produced a storm surge ``forerunner'' of about 6 feet along the upper 
Texas coast 24 hours before landfall. A similar phenomenon was 
documented during the Galveston hurricanes of 1900 and 1915. Hurricane 
Ike was very similar in track and intensity to these hurricanes. The 
forecast models used as Ike approached landfall did not predict this 
surge, it was only after careful hindcasting using the ADCIRC model 
that the cause was discovered. Now that this phenomenon is understood, 
future forecasts of similar storms will be able to predict forerunner 
surge and alert the public to the possible danger.
    Finally, ADCIRC is run under various hypothetical scenarios to 
facilitate the planning and design of future protection systems and to 
help quantify risk in low-lying areas of the coast. These studies are 
used to develop Digital Flood Insurance Rate Maps (DFIRMS), for 
example, which determine eligibility for Federal flood insurance. 
Future protection systems include ``soft'' options, such as wetlands 
restoration and restrictions on land use practices, and ``hard'' 
options, such as the construction of seawalls, levees and storm gates. 
ADCIRC has been used to model the effectiveness of all of the new 
levees which are currently under construction in Louisiana. In the 
aftermath of Hurricane Ike, many different options are being considered 
for protecting the Houston-Galveston region. One option is the so-
called ``Ike Dike,'' which was proposed by Prof. William Merrill at 
Texas A&M University at Galveston. Other options which have been 
proposed include building gates which would protect the Houston Ship 
Channel, designating large parts of the coastal region around Galveston 
and Bolivar as a National Seashore and Recreational Area, building 
oyster reefs offshore near critical infrastructure, just to name a few. 
We are working with the Severe Storm Prediction, Education, and 
Evacuation from Disasters (SSPEED) Center at Rice University to study 
these various protection systems, using high fidelity numerical 
simulations and hypothetical hurricane scenarios.
    Are Federal Investments Paying Off? Government funding of 
fundamental research in coastal ocean modeling can reap tremendous 
benefits by enhancing economic activity, promoting healthy and 
sustainable coastal environments, improving the safety and well-being 
of coastal populations, and protecting critical infrastructure located 
on the coast. There are several future research directions which are 
critical to advancing the science. Government funding of the 
computational infrastructure available through the NSF Teragrid, and 
basic research funding in computational science and engineering has 
paved a path toward revolutionizing the modeling of storm surge, and we 
are already reaping benefits in this area. As I mentioned above, we are 
now able to do high resolution storm surge predictions within the time-
frame required by emergency managers. This would have been impossible 5 
years ago. Overall however, in my experience Federal funding for 
coastal ocean modeling research has been piecemeal across different 
agencies and focused more on short term projects rather than long term 
priorities. I would welcome any effort to promote longer-term, focused, 
sustained funding of research in this area.
    With respect to storm surge forecasting, the standard hydrodynamic 
model which has been used throughout the United States has been the 
Sea, Lake and Overland Surge from Hurricanes (SLOSH) model which is run 
at the National Hurricane Center. SLOSH was developed many years ago. 
Currently, NOAA is re-evaluating SLOSH along with other computer 
models, including ADCIRC, to determine which model or models to use for 
future storm surge forecasting. It is my opinion that future forecast 
models should be performed at the highest fidelity possible given the 
computational resources available and the uncertainties inherent in any 
hurricane forecast. We must attempt to quantify these uncertainties 
where possible. It is also important that we work closely with 
emergency management personnel to understand the type of information 
that is needed and to develop ways in which risk can best be conveyed 
to the public.
    There is still basic research to be done to improve our 
understanding of winds, waves and currents and their interaction with 
coastal features and coastal structures. The ability of natural and 
man-made systems to withstand and possibly mitigate surge is not well 
understood, nor is the long-term impact of hurricanes on coastal 
ecosystems, geomorphology, and energy, communication and transportation 
infrastructure. The coastal population and economic activity along the 
coast continue to grow and expand, and policies for managing coastal 
development are required sooner rather than later. If recent history is 
any indication, no coastal protection system will be completely fail-
safe over the long term, and in the event of disaster the resilience of 
coastal communities will determine their future. All of these 
challenges are best met through knowledge and experience gained by 
theoretical research, experiments and computation, in collaborations 
that involve multidisciplinary teams of investigators, with connections 
to government laboratories, state and Federal agencies and private 
industry.

    The Chairman. Thank you. We'll start on the questions.
    It's such a profound subject. And one of the things that 
interests me most is how little people know about it and, 
actually, how little people think about it.
    Dr. Hooke, you made an interesting observation, in your 
testimony, that 85 percent of businesses that are affected by a 
disaster close their doors and don't reopen it. Now, a lot of 
things come to mind. Americans tend to think of earthquakes, 
like--Japan really kicked that off, obviously--but, we tend to 
think of the absolute calamities. And the research that's being 
done on that is incredibly important. But, I'm thinking about 
85 percent. That would not be an earthquake; that would be some 
kind of other flooding, or whatever, event.
    The--what I'm really trying to get at is, How can you 
prepare? Or do we have to say, at some point, that you can't 
prepare? I think I heard on the news yesterday, somewhere, that 
in Iowa they've just blasted down a whole bunch of levees which 
they put up for the purposes of defending against flooding.
    Senator Boxer. Missouri.
    Voice. Missouri.
    The Chairman. Missouri. And so, the--you know, hundreds of 
thousands of acres are getting flooded. And that's kind of what 
I'm talking about, that we cope as best as we can. We see 
images of people piling sandbags on sandbags.
    The question, Doctor, that you mentioned, about the 
structure of buildings--I mean, that's--the Japanese are really 
good at that because they have something like 3,000 earthquakes 
a day; obviously, most of them very small. We aren't good at 
that. I think, Mr. Ryan, in my own state, we've had so many 
floods I can't even count them. And houses get washed away up 
and down various rivers. And people don't leave. They might 
leave temporarily, but they always come back. And they do 
rebuild. Hence, back to your small business.
    What is the psychology, what is the practicality of how we 
can defend against these things which we--even if we can 
predict them--because, even if we can predict them, what use is 
it unless we can abate their effect, which, it occurs to me 
that we're not very good at? I've thrown a bunch of things at 
you.
    Dr. Hooke. You sure have.
    [Laughter.]
    Dr. Hooke. OK? And I went into science because baseball 
wasn't my strength. So--anyway. Thank you for those insights. 
And I think you're absolutely correct.
    So, here's the starting point. The starting point is that 
we have some very humble objectives. We want to live a little 
better. We'd like a nice quality of life. You know, we aspire 
to a good life for our kids, and so on. But, we are trying to 
do this on a planet that does its business through extreme 
events. So, when Anne talked about earthquakes, you know, you 
can go to your science class and learn about continental drift. 
And you find, in some parts of the world, that hurricanes are 
providing about a third of the total yearly rainfall. And so, 
these severe events make up what is really the planet average. 
And yet, what we do is, we see these events as somehow 
suspensions of the natural order. So, you know, I have 100 
straight days where the sun shining or there's a little bit of 
rain or something, and then all of a sudden the heavens open. 
So, we're not very good at rare high-consequence events.
    The 85 percent of the small businesses that don't reopen 
after they close their doors, they have a variety of causes. 
Their business may be OK. It may be on dry ground. The business 
may have survived. But, their whole customer base disappeared. 
So, you have a restaurant that specializes in Asian cuisine, 
but suddenly everybody is spending their money at Home Depot. 
So, it's very complicated. Alternatively, all the customers 
could still be there. They could be whole, but your business 
was in the flood plain, some--you know, down by the river. And 
so, it's fairly complex.
    Another example, if you think about the homes we build, you 
can look at mobile homes or manufactured homes, and they're 
especially vulnerable. But, they're the only way to 
homeownership for large fractions of people. And for, you know, 
100 years of the life of a building, the job of the walls is to 
keep the roof up. And for maybe a day out of that 100 years, 
the job of the walls is to hold the roof down. And we don't put 
in the hurricane straps or whatever we need.
    That's a long answer, but you ask a complicated question.
    The Chairman. Well, I also ran out of time.
    [Laughter.]
    The Chairman. So, Senator Hutchison.
    Senator Hutchison. Well, thank you, Mr. Chairman.
    I have introduced, in the last two sessions, weather 
modification legislation; not to do it, but to start doing 
research to determine if there is a benefit to trying to modify 
the ferocity of tornados and hurricanes, if it can be done. And 
if it is done, does it affect other areas? I think that we 
should have the research to start determining that.
    My question is, probably to Dr. Hooke or Dr. Dawson, do you 
think that this is an area we should pursue? Can it be done 
computationally with any degree of accuracy? And how would you 
pursue trying to determine a way to mitigate the enormous 
damage we're seeing now, which seems to me so different from 
the past?
    I grew up in Galveston County. So, I've seen the 
hurricanes. But, we never had hurricanes like Katrina or these 
Alabama tornados. The damage just seems to be so much more, and 
the ferocity seems to be so much more, in the last 10 years 
than it was in the previous era.
    So, with that, would research help? Could it be done with 
computers? And where would you go from here, in your judgment?
    Dr. Hooke. If we could. I'd like to begin by suggesting 
that Bob Ryan be brought into this conversation, because, in 
his graduate work, he actually worked for one of the leading 
lights in weather modification, up----
    Senator Hutchison. Wonderful.
    Dr. Hooke. Let him tell you that story.
    Mr. Ryan. Bernie Vonnegut was--had discovered the use of 
silver iodide. And before him, Vince Schaefer had done the 
first weather modification experiments at--under Irving 
Langmuir, at Schenectady.
    Senator Hutchison. Great. I'd like to hear from anyone who 
has an opinion.
    Mr. Ryan. And one of the things, I think, to address that 
is that I think all research meteorologists would agree that 
the more we can understand what is going on, and the more we 
understand the process that initiates, let's say, hurricanes, 
and how these go through lifecycles--and tornados, the better 
understanding we can have of the fundamental science--and I 
would dare say that, before we can really have an intimate and 
detailed understanding of the lifecyle of some of these even 
very small-scale but extreme events, that we're not in a 
position to then say, ``Let's try and do something to 
mitigate.'' We have to do everything, I think, first, that we 
can do to create an environment where people take action. And 
it's interesting, the convergence of the structure issue for 
earthquakes and also, as Bill mentioned, for tornados. Forty-
four percent of the fatalities in tornados occur with people 
who live in mobile homes. So, there is that, to that issue of, 
How can we ensure that the structures that people are living 
in, and certainly given the economic times, are able--and we 
have communities where these people can seek a secure shelter 
for whatever natural disaster comes, whether it be an 
earthquake or a tornado or a flood.
    But--the basic science has made tremendous advances, but 
there are still many, many unanswered questions. And I think 
the more that we can understand the evolution and the lifecycle 
and the details of what's going on, then, at some point in the 
future, we may be in a position to begin to take--and try to 
interfere a little bit and at least mitigate the maximum impact 
on population centers.
    Dr. Hooke. If I could say just a word about your second 
point, which had to do with the growing severity, apparently, 
of events of this sort.
    So, really, we're ratcheting up, slowly, day by day, our 
vulnerability to events all over this country, whether it's 
mudslides off Mt. Ranier or hurricanes on the Gulf Coast or 
tornados in between. And what's happening is, nobody wakes up 
in the morning saying, ``I think I'm going to increase the 
vulnerability of my city or my county or my state to these 
events.'' But, what--we make decisions in favor of business 
development, of needs for today. And we may be compromised at 
the tenth-of-a-percent level. And we go home every one of these 
days saying, ``That was a pretty good day.'' But, the 
accumulated burden of all the slight compromises, not intent or 
people looking the wrong way or anything of that sort, that 
adds up, over the time scale for the return of these events, to 
tremendous vulnerability--levees that are not built well in New 
Orleans or, as Anne was saying, infrastructure that was 30 
years old or 70 years old. You know, it's that kind of effect.
    Senator Hutchison. Doctor?
    Dr. Dawson. I would just add one thing. With respect to 
hurricanes, people focus a lot on the intensity of the 
hurricane. But, in the last few hurricanes that have been the 
most destructive, such as Katrina and Ike, those were not very 
intense hurricanes when they actually made landfall. So, we 
need to understand that the storm surge associated with the 
hurricane may have absolutely nothing to do with the intensity 
of the hurricane. It has a lot more to do with the size of the 
storm and how long it has been churning and the--you know, the 
radius of the storm and so forth.
    So, with respect to hurricanes, I just want to caution 
people to--you know, to step back a second and realize that 
it's not just the intensity of the storm that matters, but the 
size of the storm, and other factors, that contribute to the 
actual flood.
    Senator Hutchison. Thank you.
    The Chairman. Thank you.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you, all of you.
    I just returned from the Grand Forks area, where we share a 
border with North Dakota, and barely missed visiting the Mayor 
of Oslo, Minnesota, population 345, in a boat, because of the 
fact that their entire town is ring-diked, and that's the only 
way they survived the floods.
    Just a few things. I've been amazed at the help of weather 
forecasts and water-level forecasts and the difference it has 
made in flood preparation in Fargo and Moorhead. Literally, 
Saint Paul, Minnesota, decisions were made this time, because 
we've had so much flooding, how high the sandbags have to be, 
how big the wall needs to be, completely based on these 
forecasts that change daily. And they are completely dependent 
on them. It made a huge difference in reducing damage, reducing 
the loss of life. So, I'm a big fan of what the weather bureau 
is doing.
    Same with the tornados. We had one town this summer, 
Wadena, Minnesota, a mile wide of complete decimation, a public 
high school, where the bleachers were found two blocks away. 
It's like a bomb had gone off in it. Not one person died in 
that town. This was all neighborhoods. They got the warnings. 
The sirens went off, I think, 25 minutes ahead of time. A pool 
with 40 kids with only high school life guards, the neighbors 
were able to pick up all the kids, and the five that were left 
that their parents hadn't come, the high school kids brought 
them across the street to a basement. All of this was because 
of emergency warning systems. Clearly, we had better basements 
and more basements than they did, sadly, in the South. But, it 
made such a difference.
    And then, finally, some unique things we're doing with 
floods now. Literally 24/7, there are cameras on the flooded 
areas in towns all over our state so citizens can actually 
watch the river so they make prudent decisions. They can 
actually make their own decisions. They see where the river is. 
They're watching it, at certain points, on the Web, live, at 
every minute. These are even small towns, they're doing this, 
as well as the power of the broadcasts, where, in Fargo and 
Moorhead, they actually break in live every single day leading 
up to the flood moment, for an hour in the morning, so that the 
citizens get full report on radio and TV.
    So, I guess my first question would be of you, Mr. Ryan, 
from your perspective of a private partner in disaster 
preparedness, Where do we excel? Where do we fall short in 
communicating severe weather to the communities?
    Mr. Ryan. Well, thank you very much, Senator. And I--you 
know, I think it's--for those of us--Bill and myself, who have 
been in the field of meteorology for a bit, it is satisfying to 
be able to see the advances in the science and the application 
and now the real utility in life-saving events, and having it 
not only be a benefit to the public, but to the economy, too.
    I think, as you point out, we're using, now, modern 
technology, things like live webcams, to help people make the 
best decision. And I think that's the area that is probably 
most exciting, going forward. And when we talk about the storm 
surge or earthquakes or a tornado outbreak like last week, 
we're really thinking of a--still a small area, even though it 
impacts hundreds of thousands of people, but that also are 
still very rare events. And how can we best communicate these 
perhaps once-in-a-lifetime events that people have never 
experienced before correctly so that they still make the best 
decision?
    We saw that in Katrina. There was a tragic example of a 
family that had a storm cellar, in Alabama--invited their 
neighbors into the storm cellar when the warning was out, and 
the neighbors said, ``No, we'll ride this out.'' They did not 
ride it out. The family that went into the storm cellar 
survived. Once-in-a-lifetime event. And so, we have, I think, 
as an enterprise, a job to do involving probably bringing in 
the social sciences and social science expertise in how people 
make decisions and how we can best communicate some of these 
rare events graphically, using some of the new communication 
technologies and, of course, the broadcasts, to help people 
make the best decision.
    Ultimately, as I mentioned, we can have a 100-percent 
accurate forecast and a bad decision. The forecast has failed.
    Senator Klobuchar. Right. And then, Dr. Hooke, you talked 
about some of the investment in studying some of these past 
disasters. I can tell you, Austin, Minnesota, had some bad 
floods. They employed flood mitigation, got a grant, moved 
hundreds of houses. One guy decided to stay. He wouldn't take 
the deal. He's the house that got flooded when those Iowa 
floods came. And so, I'm a big believer. And it is very 
difficult for the cities to make these decisions, but it saves 
so much money in the long term. Could you talk a little bit 
about the mitigation issue?
    Dr. Hooke. OK. And I also think that Anne talked quite a 
bit about that----
    Senator Klobuchar. OK.
    Dr. Hooke.--as well. So----
    Senator Klobuchar. She can answer.
    Dr. Hooke.--why don't we go ahead and talk about the 
earthquake issue, because it's quite related to the weather and 
flooding issue.
    Dr. Kiremidjian. Thank you. Earthquake mitigation has been 
taking place systematically. But, we have to recognize that it 
is a very expensive process. Let me give you the example of 
Stanford University. We've been upgrading and replacing and 
repairing our buildings for, now, more that 20 years, at the 
cost of $200 million a year. Mitigation strategy--there are no 
specific mitigation policies for earthquakes that are in place. 
There was one policy that was in place in San Francisco and in 
Los Angeles to identify all unreinforced masonry structures. 
And there were provisions made for owners to upgrade and 
retrofit those structures. And I think we have succeeded in 
that effort. But, to upgrade all the remaining structures and 
the infrastructure that is out there----
    Senator Klobuchar. If I could--I think what I'm talking 
about is a little different. I'm talking about houses in the 
Midwest that are just moved or they are----
    Dr. Kiremidjian. Yes.
    Senator Klobuchar. But, they are----
    Dr. Kiremidjian. Yes. I'm sorry, I don't have experience 
with that. So, maybe I'll divert the question to----
    Senator Klobuchar. I know. That's what I mean. It's a lot 
less expensive. These are houses, maybe----
    Dr. Hooke. When you rebuild----
    Senator Klobuchar.--$50-$100,000 homes----
    Dr. Kiremidjian. Yes.
    Senator Klobuchar.--that are simply moved to a different 
part of town. They're put on the back of a truck. And it's just 
a lot cheaper. And they have beautiful parks, then----
    Dr. Kiremidjian. Right.
    Senator Klobuchar.--on the river. And it's expected to 
actually flood on those parts instead of losing all these 
homes----
    Dr. Kiremidjian. Right.
    Senator Klobuchar.--loss of life, those kinds of things. 
So, I believe you about the earthquakes, but I----
    Dr. Kiremidjian. Right. We can't move the buildings for 
earthquakes. It won't help.
    Dr. Hooke. Well----
    Senator Klobuchar.--the towns on the river need to look at 
more across the country.
    Dr. Hooke. In both cases, it's a matter of culture and 
values, though, isn't it? So, if we want a big house, and we 
want kind of a showcase, and we like some of the jazzy 
features, we go for that. Or maybe, we're thinking about the 
safety of the kids and whether we're putting our kids to bed in 
the flood plain at night, or--you know, call yourself a parent 
and doing things like that--not so good. But, we can change 
that culture.
    One way to do it--and I was kind of encouraged on this by 
my staff, and I didn't follow it, to my regret, now, in the 
notes here--was talk a little bit about STEM education and 
earth sciences for kids in public school, because they're a 
great way into each household and developing this culture and 
this set of values.
    Senator Klobuchar. Thank you very much, to all of you.
    The Chairman. Senator Boxer.
    Mr. Ryan. So often the children and the students take home 
important messages for their parents. And we've had a number of 
examples where the young people have made the proper decision 
for their family, and ended up saving lives. Education is 
certainly important.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you----
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you, so much.
    Thank you for holding this hearing. And I'm proud that 
you're--you've joined with me and Senator Cantwell to sponsor 
the Natural Hazards Risk Reduction Act of 2011, which will 
reauthorize, for 5 years, some very important programs that 
deal with national earthquake hazard reductions and windstorm 
impact reductions.
    And I'll put the rest of my statement in the record, if I 
might. And I'd just summarize here. Is that OK?
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Mr. Chairman, thank you for holding this important hearing today to 
examine Federal efforts to prepare for natural disasters and the Boxer-
Cantwell-Rockefeller Natural Hazards Risk Reduction Act of 2011.
    My state is no stranger to natural disasters. Californians 
understand that it is a matter of when--not if--the next major 
earthquake will strike.
    According to the U.S. Geological Survey, there is a 99 percent 
chance that California will suffer a magnitude 6.7 earthquake within 
the next 30 years.
    This is comparable in size to the earthquakes that struck San 
Francisco in 1989 and Los Angeles in 1994. Together these earthquakes 
killed 120 people and caused tens of billions of dollars in damage.
    The horrific March 11 earthquake in Japan is a stark reminder to my 
state of the potential for destruction and the importance of 
preparedness.
    But, no part of this Nation is immune from the devastation caused 
by natural disasters. Tornados, hurricanes, earthquakes, and wildfires 
are a constant threat to human life.
    Just last week, at least 342 people were tragically killed when a 
record number of tornados ravaged several southern states.
    To address these threats, we must invest in programs that minimize 
risks and mitigate damages so our communities can better withstand 
these types of natural disasters.
    That is why I am proud to sponsor the Natural Hazards Risk 
Reduction Act of 2011.
    This legislation will provide a 5-year reauthorization of the 
National Earthquake Hazards Reduction Program (NEHRP) and the National 
Windstorm Impact Reduction Program (NWIRP).
    These programs are designed to mitigate earthquake and windstorm 
hazards through research, development, technology transfer, and 
outreach activities.
    The National Earthquake Hazards Reduction Program develops 
earthquake research, seismic building codes, and increases awareness of 
the threat of earthquakes.
    The National Windstorm Impact Reduction Program works to improve 
knowledge and awareness of windstorms, and develop wind-resilient 
designs that can be incorporated in the construction of buildings and 
infrastructure.
    This is a wise investment of Federal funds. Not only does it save 
lives, but the Congressional Budget Office estimates that for every 
dollar invested in disaster mitigation, three are saved by reducing 
future damages.
    I want to thank our distinguished panel for joining us today, 
including Dr. Anne Kiremidjian, a Professor with the Department of 
Civil and Environmental Engineering at Stanford University who will 
testify on earthquake hazards and risk mitigation.
    Thank you, Mr. Chairman.

    Senator Boxer. Mr. Chairman, I came to the House of 
Representatives in 1983, and since that time, California has 
experienced 31 significant earthquakes. Significant 
earthquakes. And, out of those, nine had deaths associate with 
them. The most deaths, I think people know, were Loma Prieta, 
in northern California, and Northridge, in southern California. 
Between the two, 123 deaths. So, when we talk about hazards, we 
talk clearly about saving lives. And we see we lost 342 people 
in the South; there are still people missing. No part of this 
Nation is immune from devastation of one kind or the other.
    But, I am going to just focus in on earthquakes with the 
good doctor from Stanford and ask you this. Earthquake early 
warning systems, this is something that I--you know, I'm 
hoping, in my lifetime, to see. I know that we're testing and 
evaluating them right now. Could you give us a report as to how 
soon we could expect those to be deployed in a larger scale?
    Dr. Kiremidjian. I think the technology is being worked on 
right now. We have made advances. We have to remember that 
earthquake warning will help, primarily, lives--save lives. 
They will not help with preventing damage to infrastructure. In 
that respect, they are really important. How far along we are? 
I think we are getting closer every day.
    Senator Boxer. Give me an idea of what you're looking at. 
We're looking at years to have this? Are we looking at months 
to have this? Are we looking at a decade to have this? What do 
you see?
    Dr. Kiremidjian. My estimate, from whatever I know, I would 
say 3 to 5; at most, 10 years.
    Senator Boxer. OK. That's good news.
    Let me ask you this question. And I don't mean to put you 
on the spot, but I'm going to. We have two nuclear powerplants 
in our state----
    Dr. Kiremidjian. Right.
    Senator Boxer.--that are located on or adjacent to fault 
lines that are very dangerous. And, you know, after looking at 
the--what happened in Japan, these two plants are up for 
reauthorization. Just as a scientist, without any agenda--you 
know, for me, I'm looking at it.
    One of my plants, Mr. Chairman, has 7 million people living 
within 50 miles, which is the area that----
    Dr. Kiremidjian. Diablo Canyon.
    Senator Boxer.--evacuated in Japan. And the other has a 
half a million people.
    So, do you have concerns about these plants?
    Dr. Kiremidjian. I would say that those plants have been 
evaluated and reevaluated and reevaluated. What would concern 
me is that they are such complicated systems that there's 
always some chance of something going wrong. And it can be due 
to the earthquake, but it can be also due to human error.
    How do we prevent that? We have to be vigilant. We have to 
study the systems continuously. My understanding is that--and 
actually, one of my very first consulting jobs was on the 
Diablo Nuclear Power Plant, after finding the existence of the 
Hosgri Faults----
    Senator Boxer. Yes.
    Dr. Kiremidjian.--some 7 kilometers away from it. And we 
did look at the type of ground motions that we might expect. We 
have learned a lot more. And, based on my understanding--I 
haven't kept up with it all these years--but, based on my 
understanding, those plants are being reevaluated every 2 or 3 
years. From earthquake safety point of view, I think the 
structures--the containment structure has been designed very 
appropriately, and I don't expect to see any damage. What would 
worry----
    Senator Boxer. Well, is----
    Dr. Kiremidjian.--me are other things.
    Senator Boxer. Wait a second.
    Dr. Kiremidjian. Yes.
    Senator Boxer. You're right. They were designed to 
withstand a certain earthquake----
    Dr. Kiremidjian. They were----
    Senator Boxer.--size.
    Dr. Kiremidjian. Yes.
    Senator Boxer. But, they were not designed to protect 
against larger earthquakes, which are now predicted. So, I 
think--could we follow up? Can I follow up with you on these? 
Because, I think----
    Dr. Kiremidjian. Absolutely.
    Senator Boxer.--it's very serious. Because, when you say 
they've been evaluated, they have not done the 3D evaluation 
that needs to be done. They are now agreed, finally, to do 
that, when the state said they would not allow NRC to reissue 
the license. So, can we follow up on this? Because, I--this is 
very--I mean, when we talk about this, we're talking about 
millions of people.
    Dr. Kiremidjian. Correct.
    Senator Boxer. And that's my concern. I mean, whether the--
if the building is still standing there is one thing. It's what 
happens to the radiation.
    Dr. Kiremidjian. Right. That's--I was just about to say 
that the----
    Senator Boxer. And the tsunami----
    Dr. Kiremidjian.--building would stand, but what happens to 
all the systems within the building--the cooling system, the 
backup generators.
    Senator Boxer. Right.
    Dr. Kiremidjian. One of the reasons why the Daiichi Nuclear 
Power Plant suffered the damage was because their backup 
generators were damaged.
    Senator Boxer. Exactly.
    Dr. Kiremidjian. And so, we need to look at the entire 
system and all of its components and how they work together. 
And that evaluation, I believe, needs to be done----
    Senator Boxer. Good.
    Dr. Kiremidjian.--again in a much more detail.
    Senator Boxer. Well, I'm glad you said that. And also, the 
tsunami threat, particularly for----
    Dr. Kiremidjian. Yes.
    Senator Boxer.--San Onofre.
    Thank you so much. And I look forward to getting our 
legislation moving. Because, for every dollar we spend, we save 
three.
    Dr. Kiremidjian. Four.
    Senator Boxer. So, good investment. Four?
    Dr. Kiremidjian. Right. Well----
    Senator Boxer. Wow.
    Dr. Kiremidjian.--we save three.
    The Chairman. Well, I have to actually----
    Senator Boxer. OK.
    Dr. Kiremidjian. After we take the one out.
    The Chairman. I beg forgiveness----
    Senator Boxer. Very good.
    The Chairman. We have to be in our seats at 3:30 for a 
highly symbolic and important vote. If you're willing to wait--
yes--we'll come back.
    Voice. Sure. All right.
    The Chairman. OK?
    Voice. It's a deal.
    The Chairman. So, this hearing is temporarily recessed.
    [Recess.]
    The Chairman. We will resume our hearing. And it--I'm 
sorry, the vagaries of the Senate, which are many--some good, 
many bad--are in operation this afternoon. So, this cannot be 
very long. And I say that with sorrow, because you are all so 
good and because the subject is so important and complex.
    I don't think most people know that the Commerce Committee 
has a whole subcommittee and group of experts who deal with 
exactly what we're talking about, and--you know, the whole 
question of funding and what will NOAA have, what will the 
National Weather Service have. All of these are so important.
    I want to ask a--what will sound like a controversial 
question, but I'm just plain curious. The question of global 
warming has its place. I happen to believe in the science of 
global warming, and I do believe that part of our problems are 
created by people. And--but, I don't know to what level that 
reaches. For example, I can't imagine that it creates an 
earthquake or, you know, the shifting of plates and things of 
that sort. But, I'm just curious if carbon emissions, at some 
point, create havoc with, for example, weather patterns or the 
shifting of, I don't know, heat sections from here to there, or 
whatever. Who would like to answer that?
    Mr. Ryan. Kevin Trenberth, who is a eminent researcher at 
NCAR, points out--and I think it's fair to say that--and we 
tend to think of--for those of us in the meteorological field--
that weather and climate are separate. They are not. You know, 
we love to say that weather is what you get and climate is what 
you expect. But, the two are integrally linked. And indeed, if, 
as the overwhelming number of climate scientists, scientists 
working in this field, believe that we are seeing the very 
distinct footprints of man's influence on the climate, then 
there is part of climate change. And I really, when I talk to 
the general public, prefer to talk about climate change, 
because it involves many more things than just global warming--
changes in land use, changes in ocean acidification.
    So, there is part of--Kevin believes--part of the global 
change, climate change, in weather events. If the amount of 
water vapor--moisture--in the atmosphere is increasing in a 
warmer world, then that increases the probability of more 
severe or high precipitation events which could lead to more--a 
higher probability of localized flooding.
    The Chairman. In that that has taken place measurably, are 
there--have there been incidents which you can tie, at least 
cerebrally, to, you know, carbon emissions?
    Mr. Ryan. I think--I don't think anyone would be 
comfortable saying that there is one weather event that we can 
pin on man's influence on the climate. However, in the 
instances where we're dealing with storm surges and with 
inundation in a world, let's say, 50 to 100 years from now, I 
think it's fair to say that the probabilities of more coastal 
communities being at increased risk for having a once-in-a-
lifetime inundation and flood is probably increasing. And the 
probabilities--we all deal with probabilities--and certainty--
unfortunately, the certainty may be there when we're out at 50 
to 100 years. The climate doesn't respond to us turning off our 
lights all at once. It takes a long time to adjust to 
significant changes in long-term patterns, which may be changes 
in Earth orbits, the makeup of the atmosphere. It will take a 
long time to respond to anything that we do to change in, let's 
say, a positive way in mitigation, rather than it adapting to a 
changing world.
    The Chairman. I thank----
    Dr. Hooke. Mr.----
    The Chairman.--you. I want to ask one more question.
    Dr. Hooke. Mr. Chairman, if I could----
    The Chairman. I'm sorry.
    Dr. Hooke.--just add to that, because I think it's a very 
important question, and----
    The Chairman. I do, too.
    Dr. Hooke.--Bob gave a good answer. But, it--we talked, a 
little bit ago, about how climate is an average of cycles of 
flood and drought. So, the Earth is doing its business through 
these extremes. And what we call the average is very difficult 
to actually measure or compute, given that there are cycles of 
hot and cold, and wet and dry, and so on. So, if you think 
about sort of a four-star kind of restaurant guide to climate 
science, and you give four stars to things that everybody 
agrees on, and fewer stars to things that people have trouble 
with, everybody would give four stars to the idea that 
greenhouse gases are going up and four stars to the idea that, 
on the average, that creates a little warming. But, when it 
comes--and everybody would say, ``We know that this warming 
will have some effect on storm tracks, storm intensity, storm 
duration--all those aspects.'' But, then when it comes to what 
kind of effect that would be, that's where the real uncertainty 
is.
    The Chairman. Understood.
    I'm pushing a bill very hard--in fact, it's my number-one 
priority--and I'm curious as to your reaction to it, because I 
think it would be favorable. It strikes me that--just the four 
of you, it's sort of like you work together anyway. You phone 
call each other every day and exchange information. And I'm 
sure that's not true. But, that's the appearance of it. In 
other words, there's a kind of a common path that you all are 
walking.
    We--9/11 is coming up, the tenth anniversary, very shortly. 
And, you know, it was made famous in--at Kuwait, when the Army 
and the Navy and--you know, nobody could communicate with each 
other, because they all had different communication wavelengths 
and sets. And it turns out that 10 years--almost 10 years after 
9/11, first responders, from firefighters to police officers to 
sheriffs to hospital folks--you know, everybody who is involved 
with trying to protect the public--they're in the same 
situation. States do it state by state, and some don't do a 
very good job at it. They take little nuggets of a piece of 
spectrum and apply it to something, and it's not efficient.
    Now, my bill would--our bill would make 10 megahertz, which 
is referred to as the ``D block,'' of spectrum available, on an 
interesting basis. Users of spectrum, on a voluntary basis, 
could return to the government the spectrum that they are not 
using. This would not be mandatory, but it would be voluntary. 
It works much better if it's voluntary. And, from that, you get 
the White House and others--figure between 28 and 31 billion 
dollars.
    Now, what you can do is use that for a variety of purposes. 
One is, you can--we will definitely have, and it's in our bill, 
a spectrum auction so that people can buy back or buy those 
pieces of spectrum that they want. And then the question would 
be, What would be the priority? The main priority, from my 
point of view, would be to have a entirely nationwide single 
interoperable wireless broadband communications network in 
which, yes, everybody would have to have new hand-held sets--
they would be different; they would cost several thousand 
dollars. But, everybody, absolutely everybody in the national 
safety network would be on exactly the same wavelength.
    I can't think of going into 9/11--the 9/11 Commission 
charged us to do this--without having done that. And it can be 
done for, some would say, $10-, $11-, $12 billion. But, you 
see, if you're going to get 28 to 31, you've got some margin. 
You need to put some research into that. You need to do some 
upgrading of technology, as it happens, for that. And then you 
can also probably use $9- or $10 billion of that for deficit 
reduction. Originally, that was what everybody wanted to do, 
just get it all and then use it all for deficit reduction.
    But, the 9/11 compulsion and moral obligation is 
overwhelming. And so, some of us are pushing very, very hard 
for this purpose. All mayors, all police officers, all public 
safety officials, all Governors--you know, everybody is for it. 
It doesn't mean it'll pass, but it's--the President's strongly 
for it, the FCC is for it--was a little bit skeptical at first, 
but is now very much for it. So, in other words, all the pieces 
are in place.
    And what I'm obviously rather blatantly doing is asking you 
whether you think it's a good idea.
    Mr. Ryan. Why is everybody looking at the broadcaster?
    [Laughter.]
    Mr. Ryan. I think communication, which I had talked about, 
is critically important, going forward--how we make decisions, 
how we can help the emergency managers better communicate and 
better prepare for these extreme emergencies, whether they be 
natural or manmade. And anything that, I think, allows for a 
wide and effective communication across multi-agencies that 
will then better serve the public, I think would certainly be 
supported.
    On the other hand, we who are an integral part of 
communication in weather emergencies or other extreme events 
feel that we have, certainly, our public obligation, as holders 
of the--part of the public spectrum, too, to then serve the 
public. And, as we saw in the example that I cited, of last 
week, with broadcast meteorologists being on the air sometimes 
15 hours straight, and those are the last stop, if you will. 
Those are the people that still, in this day and age of hand-
held devices and mobile devices and multi-frequency and laptops 
and so forth, still turn on the TV to see the person that is in 
their community, that they know and trust, to help them make a 
decision.
    So, I think it has to be--certainly, I agree with you 100 
percent, but we still communicate best one-to-one and help each 
other make decisions. And the current system is still an 
integral part of what would be a great step forward in 
coordination, if you will, of communication of emergencies and 
emergency information. But----
    The Chairman. Mr. Ryan, I mentioned, I thought rather 
forcefully, the use of the word ``voluntary''----
    [Laughter.]
    The Chairman.--and that really is the key to it.
    Mr. Ryan. Yes.
    The Chairman. In other words, you really do have, in 
states, when the--for example, West Virginia and Ohio can't 
talk to each other.
    Mr. Ryan. Right.
    The Chairman. It's embarrassing. But, the state has a 
system, and it's a--little bits of spectrum here and there. And 
it's not fully functional. It's not subject to the larger 
national approach. So, I'm going to put you down as a yes.
    [Laughter.]
    Dr. Hooke. I was going to say, it's----
    The Chairman. The networks have no problem with this.
    Dr. Hooke. It's easier, from my perspective, to be 
enthusiastic about this. As long as I can remember, everyone in 
the hazards community--and I think Anne's going to----
    Dr. Kiremidjian. Yes.
    Dr. Hooke.--say something similar--is--this has come up in 
every kind of disaster, that people have looked at the 
emergency response and it's like a Tower of Babel out there; 
you've just got people who cannot reach each other, there's no 
set of protocols, and so on. And it's important, I think, that 
the Senate take some step to start a national exploration of--
you know, the chances of getting something as complicated as 
that correct the first time are slim, but if you put it into 
place, you can quickly refine it and improve it, and it would 
be wonderful to be better off 10 years from now than we are 
today with regard to this issue.
    The Chairman. Thank you.
    Dr. Hooke. And so, put me down for a yes.
    The Chairman. I will do that.
    Dr. Kiremidjian. I think Bill articulated it very well. And 
I will just add that I'm surprised that we haven't done 
anything yet, that we're still talking about doing it. I was 
under the impression that we are already doing that.
    The Chairman. We're not.
    Dr. Kiremidjian. I am shocked and disappointed. But, I'm 
glad to see that you're pushing for it.
    The Chairman. Good.
    Dr. Dawson.
    Dr. Dawson. Well, I work with people, indirectly, through 
the state operations center at--in the Texas Governor's 
Division of Emergency Management. And I'm sure that they would 
support this. For example, as you mentioned, West Virginia and 
Virginia can't talk to each other. Well, neither can Texas and 
Louisiana. And in a hurricane situation, it's--that has been 
quite disastrous.
    The Chairman. I have a very unhappy Senator from the State 
of Florida who is looking at--I am--that I've gone almost 8 
minutes over my time. But, I now yield, dutifully, to him.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Do I look unhappy, Mr. Chairman?
    [Laughter.]
    The Chairman. You never do.
    Senator Nelson. Well, may I enter a opening statement for 
the record, please?
    The Chairman. Absolutely. It's--it is entered.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman, I am glad that we are discussing a concern that is so 
important to the folks of my State of Florida and throughout the 
country: the possible devastation that natural disasters such as 
hurricanes, tornadoes, and earthquakes can leave. And tragically, we 
have witnessed some of devastation play out over the past weeks with 
the deadly tornadoes throughout Alabama and the south, the March 2011 
earthquake in Japan, and the approaching the 2011 hurricane season, 
where scientists predict 16 named tropical storms, 9 of which to become 
hurricanes.
    Damage from natural disasters is certainly not new to Floridians. 
On September 1926, the Great Miami Hurricane was an indication of 
things to come. Two years later, a category four hurricane caused Lake 
Okeechobee to flood its banks killing 2,500 out of South Florida's 
50,000 residents. In August 1992, Hurricane Andrew struck South Florida 
causing an estimated $26 billion in damage to the United States. In 
August of 2005, we all know the destruction Hurricane Katrina caused 
through Gulf Coast region, causing more than $91 billion in economic 
losses, forcing more than 770,000 people from their homes, and killing 
an estimated 1,833 people.
    The sheer magnitude of this loss is staggering and underscores the 
need for increased funding for hurricane research and improved 
forecasting. But hurricanes and natural disasters do not just affect 
those living along the coasts. These extreme events have national 
consequences from increased fuel prices to severe inland flooding.
    Improvements in track and intensity forecasts mean better 
preparedness for coastal and inland communities, saving lives and 
reducing devastating impacts. Accurate, timely, and detailed 
information is essential for emergency managers to make decisions and 
disseminate information to the public. And the issues that we are 
discussing today clearly call for prudent investments that will protect 
lives and prevent economic devastation, reducing our vulnerability to 
hurricanes.
    One way to protect lives and prevent economic destruction is 
through improved coordination and investment in hurricane research. A 
bill before this committee that I introduced, the National Hurricane 
Research Initiative Act of 2011, will dramatically expand the scope of 
fundamental research on hurricanes, enhancing data collection and 
analysis in critical research areas, and translating of research 
results into improved forecasts and planning. When fully implemented, 
the National Hurricane Research Initiative will improve our 
understanding and prediction of hurricanes and other tropical cyclones, 
including, storm tracking and prediction, storm surge modeling, and 
inland flood modeling. This research will expand our understanding of 
the impacts of hurricanes on and response of society and help us to 
develop infrastructure that is resilient to the forces associated with 
hurricanes. We never know when the next natural disaster will strike. 
This type of research is urgently needed, and that research needs to be 
well coordinated.
    But, even with possible legislation like the National Hurricane 
Research Initiative and the Natural Hazards Risk Reduction Act of 2011 
introduced by Senator Boxer, there remain areas left unaddressed. For 
example, one significant area is that NOAA needs $800 million for its 
JPSS, the Joint Polar Satellite System. JPSS is an elaborate satellite 
system used to track environmental conditions, and collect and data on 
weather, oceans, land. It allows forecasters and scientists to generate 
and compile data into complex models to predict and prepare. JPSS 
provides consistency in collecting data and developing complex 
predictive models and investment in such systems are integral in our 
natural disaster preparedness. A lapse in JPSS monitoring could risk 
missed forecasting signs for severe weather and natural disasters 
including hurricanes and tornadoes, something I and the rest of the 
American people do not want to have happen.
    I'd like to thank the witnesses for being here today. I look 
forward to your testimony and valuable commentary regarding these 
important concerns.

    Senator Nelson. And before I get to the subject matter of, 
``Is Federal investment paying off?'' I want to say to Mr. 
Ryan, your profession--before we had a lot of Federal 
investment on national disaster preparedness, your profession 
was key. For example, remember the name Brian Norcross, in a 
Miami TV station, that stayed on the air when we were so 
unprepared for the monster hurricane, Hurricane Andrew, that 
hit south Miami Dade County, a relatively unpopulated part? Had 
it turned 1 degree to the north and hit downtown Miami or the 
area in between Miami and Fort Lauderdale, it would have been a 
$50-$75 billion insurance-loss hurricane. As it turned out--and 
this is 1992 dollars--it was a--almost a $20 billion insurance-
loss hurricane. It would have taken down every insurance 
company, financially, that it was in the path. And then, of 
course--and this is just to say to Mr. Ryan, that his 
profession--no telling how many lives were saved because of 
Brian Norcross staying on the air and telling people what to do 
when we were basically unprepared.
    You know, hurricanes are a way of life in Florida. And when 
I grew up as a kid, it was an excuse to get out of school. 
Later, when I was a bachelor, it was an excuse to have a party. 
Now, since we've had so many people that have moved to Florida 
and the coast is so urbanized, now it is--for a monster, it is 
unmitigated disaster in economic loss and loss of life.
    So, turning to the question, ``Are we better prepared, 
federally, to meet these kind of disasters?'' I think the 
answer is clearly yes. But, I think it happens to be on who is 
running an organization like FEMA or NOAA and so forth. And 
fortunately, right now we have a couple of good ones that are 
running those organizations.
    But, there are some troubling signs. For example, NOAA 
needs about $800 million for a satellite called the JPSS--Joint 
Polar Satellite System, something like that, JPSS--which would 
complement the existing array of weather satellites that we 
have up. And yet, how in the world are we going to get $800 
million? And yet, they need it now.
    Or, what about the troubled life of a satellite called 
Triana that has now been made over into a satellite called 
DSCOVR and needs to be launched that will tell us about the 
solar explosions? There are nuclear explosions on the surface 
of the sun. And if we don't have a warning from a satellite--
and we've got military satellites out there now that'll give us 
a warning, but they're just about at their end of life--and we 
can't give a sufficient warning before all of those cosmic rays 
hit the Earth or hit our satellites in orbit around the Earth 
so that they can get into the safe position to protect against 
that radiation, we can suddenly go blind. And yet, to try to 
get that satellite up is another one that we've been struggling 
with. And I hope we're on a path now, because the Air Force 
realizes that it is so important, to get that satellite into 
orbit.
    And it orbits, Mr. Chairman, in a place that is called, the 
``LaGrange Point.'' It's at the point that the Earth's 
gravitational pull, between Earth and sun, stops and the sun's 
gravitational pull starts, so that it sits right there. And 
another thing that it'll do, it'll have a camera back--since it 
sits in a fixed position between the sun and the Earth, it'll 
have a camera looking right back at Earth. This is a second 
instrument on the satellite. And we will see our Earth as it 
completely goes through its 24-hour turn every day. We'll be 
able to look at our planet from approximately a million miles 
away, seeing this incredible planet that we have.
    So, any of you, would you please comment on the necessity 
for these kinds of satellites.
    Dr. Hooke. Well, that's a wonderful speech, and I'm 
strongly supportive. In fact, I was hoping, when the Chair was 
talking about $30 billion which showed up out of nowhere, that 
perhaps $800 million of that might be spared for this one 
particular satellite.
    I said something about that in my opening remarks. And I'd 
like to reemphasize it. The whole process of developing 
warnings for weather that represents a threat is kind of a 
multi-day process. And it's not enough, even in the case of a 
tornado, when you're tracking it on the radar and you've got 
the 20 minutes of warning that Bob talked about. If people 
weren't prepared that morning--``This is a dangerous day. I 
need to pay attention to what the radar is going to be showing 
later in the day''--they're not going to be prepared. 
Similarly, they won't be prepared in the morning if they didn't 
see some hint of it, you know, a day earlier.
    And the fact of the matter is that the polar orbiting 
satellite provided about a 4- or 5-day head start on seeing 
this system that caused us so much trouble last week. And each 
day--and this is the important part of taking those satellite 
data and putting them into the models--if you put them in the 
models and, 5 days out, it says, ``Gee, it looks like Wednesday 
is going to be a bad day,'' but then, 4 days out, it says, 
``Oh, call that whole thing off. Wednesday looks OK,'' and 
then, 3 days out, it says, ``Whoops, we were wrong. Wednesday's 
back in the picture,'' people don't know how to be prepared.
    And what's vital about that polar satellite system is that 
it makes the difference, in terms of these models. And we've 
seen this not only in the U.S. models, but also in the European 
models, and being able to provide that consistency, day in and 
day out, as that hazardous period, that interval that's going 
to be dangerous, approaches. So, I think you really hit the 
mark with that comment.
    Mr. Ryan. And if--Senator, if I might add, as you--Brian 
Norcross, of course, did, really, a lifetime of work in the few 
days that he was on and literally saved lives and was so well 
recognized. And yet, Andrew was just one hurricane that struck 
the United States that year. That was the only one. So, we 
cannot be complacent about, ``Oh, the predictions and the 
outlooks for X number of hurricanes.'' All it does is take one.
    And Bill has been working--has done a lot of work on the 
improvement and the advance of the science in being able to 
narrow the landfall. That is certainly a continuing issue. A 
continuing research is landfall and trying to narrow the 
probability of landfall--landfalling hurricanes. As you well 
know, the economic value of being able to decrease the 
envelope, if you will, of landfall can have--be paid off in 
millions and millions of dollars in unnecessary evacuations. 
So, when we look at the cost of some of these systems, and 
turning on or turning off systems, and where we have made--and 
the progress we've made in the fundamental understanding of, 
one, hurricanes, but also the ability to predict ever more 
accurately the path and the probabilities of landfall, the 
economic value of that and the advances that we've made far, 
far outweighs, by many, many times, the risk that we are taking 
by terminating a program and then trying to restart it in 2 or 
3 years when we find out we've lost something.
    Senator Nelson. Mr. Chairman, if I could just make the 
final observation----
    The Chairman. Well, then I'll have to say something first, 
because it won't be final.
    [Laughter.]
    Senator Nelson. No, I'm talking about me making my final 
observation.
    The Chairman. Well, I know, but I've got to go do a bunch 
of things. I was hoping, if you could--if you had questions, 
that you could stay and just do this.
    Can I just make one observation?
    Senator Nelson. Sure, sure.
    The Chairman. And that is that, really, actually, we 
haven't even been very square with you. The point of this 
hearing is, in fact, to put, in terms of lives of people and 
destruction, mass destruction of land, and hopes and futures 
and all the rest of it, in the context of what we are now going 
through, which is our budget. And the only budget which exists 
is--has been passed, vigorously, by the House. And, with the 
exception of Social Security, it would take every--just out of 
the discretionary part of the budget--it would cut government 
by 50 percent--money, people, the whole works. That's why we're 
doing this, in part: to hear you explain why--as well as 
Senator Nelson--why you need to have certain things in order to 
save lives and to give people an orderly hope for their own 
futures, much less you all having a sense, as a scientific 
community of practitioners and researchers, a good feeling 
about your future.
    I mean we are at such a critical, drastic point. And the 
whole question of defaulting on our national debt and all of 
that is staring us in the face, and we're having to make 
decisions, and we want to hear from people from people like you 
about what happens if, for example, this solar satellite 
doesn't exist. And I think both of you have spoken to that. So, 
that's just a little bit of context.
    And you've been very, very helpful in that.
    And if I have your permission, Senator Nelson--Senator 
Nelson and I are very good friends, and we give each other a 
very hard time--may I turn this all over to you?
    Senator Nelson. Are you sure that you want to?
    The Chairman. Absolutely.
    [Laughter.]
    The Chairman. I trust you fervently.
    Senator Nelson. [presiding]. Thank you, Mr. Chairman.
    Mr. Ryan. Thank you, Mr. Chairman. It has been a pleasure 
to be here.
    Senator Nelson. I just want to make the observation that, 
whereas we have been able to be so sophisticated in our 
computer modeling and doing a lot of the things, that you all 
just described, which save a lot of lives and save a lot of 
money, nevertheless the insurance industry is still set in its 
ways in economic computer modeling that determines insurance 
rates and will let--not let the regulatory governmental 
organizations see their proprietary information of what goes 
into those computer models and, therefore, what they are 
charging in rates. And of course, if you are in a higher-hazard 
area for storm, hurricane, whatever it is--floods--the rates 
are going to be much higher.
    And I'd like any comment that you all have of prying open 
the can of these computer models by insurance companies to 
determine if these are accurate rates that they are charging.
    Dr. Hooke. I'd like to comment on that. And it's a little 
piece of responsiveness and a little piece of shabby self-
interest.
    So, the insurance problem, as you know, is an extremely 
complicated one. And the insurance companies don't come in a 
single flavor, do they? I mean, we've got reinsurance, and 
we've got property and casualty, and we've got commercial and 
different things. And the way they--and then we've got states 
who are taking on some of the insurance and--you know, 
proposals floated to have the Federal Government do the same 
thing. So, it's worth discussion.
    It--from the standpoint of a bystander, it has similarities 
to the healthcare debate, you know, and where the insurance 
will come from and what all that means and, you know, how we 
might live healthier lifestyles and reduce health costs and all 
the rest of that. So, I see some similarities.
    So, this is a very important topic. And I think you've 
said, extremely well, that we have to get it right, we have to 
keep working on it, because if I'm a homeowner and I'm trying 
to live where I've lived the last 10 years, and suddenly I 
can't get insurance because it's no longer available, that's a 
catastrophe as bad as if the hurricane actually hit, isn't it? 
So, it's a terrible thing.
    The shabby part: So, the American Meteorological Society, 
which might not be the organization that you think of as doing 
this, has had a couple of dialogues between the Commerce 
Department, particularly, and the insurance industry over the 
last 10 or 15 years. And we would be very interested in hosting 
a similar kind of dialogue now.
    Now, I'm looking around the meeting and I see people with 
IQs in three digits, and we all know that there are enough 
meetings already. But, I think that such a meeting, which the 
AMS would be willing to host and provide kind of a neutral 
ground for insurers and the government, the way we have in the 
past, would be useful toward resolving some of the issues that 
you bring up. And in fact, you might have enough convening 
power that if people knew you were going to be present at this 
meeting, even for a small period, it would be electrifying, in 
terms of the response.
    Senator Nelson. Well, thanks to all of you for a most 
illuminating panel. We are very appreciative.
    Does the staff have any further questions? OK.
    Thank you. Good afternoon.
    The meeting is adjourned.
    [Whereupon, at 4:40 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    I would like to thank Chairman Rockefeller for holding this 
important hearing. In recent weeks and months natural disasters have 
dominated news broadcasts and left many of our loved ones, friends, and 
citizens with damages and injuries.
    In New Mexico widespread and intense drought has left farms, 
grassland, and forests dry and vulnerable. Already this spring, New 
Mexico has experienced dozens of wildfires. Almost daily new fires are 
identified and responses are organized. All of New Mexico's Federal, 
state, and tribal land managers are on alert fighting to contain 
wildfires through wick response and safe management.
    I commend these local and Federal officials who have coordinated 
efforts across the state, resulting in what the public has recognized 
as well organized and productive responses to the fires.
    As the skies remain clear and the land continues to dry, we can 
surely expect more fires and the associated difficulty for New Mexico's 
landowners and citizens. Already the USDA has recognized the hardship 
weighing on producers in New Mexico and is responding with the 
appropriate disaster assistance.
    With severe weather and a troubled economy, this is a difficult 
time for all Americans. I again thank Chairman Rockefeller for keeping 
the preparedness for natural disasters a focus of this Congress, and I 
urge my colleagues to remember the value of preparedness and quick 
response as we enter the FY12 Appropriations debates.
                                 ______
                                 
   Prepared Statement of Hon. Mark Warner, U.S. Senator from Virginia
    Mr. Chairman, thank you for the opportunity to include this 
statement in the record, at this most difficult time.
    Just last week, on April 27 and 28, tornados and other severe 
weather tore through the southern United States, including Virginia. In 
addition, Virginia faced several other severe storms earlier in the 
month and had tremendously affected areas including Goochland, Halifax, 
Pulaski, Rockingham, Shenandoah, Smyth, Washington and other Virginia 
counties.
    Although the evaluation of damage is still underway, initial 
reports coming out of Virginia show that the weather was responsible 
for the tragic loss of at least five lives and damage of more than 400 
homes and other buildings. Furthermore, as of Friday, at least 6,000 
people were still without power. Trees are still downed and countless 
acres of farmland are damaged. At this critical moment we must keep in 
mind the needs of all Americans affected by this severe weather, and do 
all that we can to help them restore their livelihoods.
    Virginia has suffered from natural disasters as have all states. 
The challenge is that the government has limited resources and natural 
disasters typically occur with less than ideal warning. We need to find 
the best ways to combine State, Federal, and private sector resources 
to become aware of, plan for, and recover from natural disasters. The 
question is, how best to use our resources? As a former Governor, I 
believe technology can be a large part of the solution, whether we 
focus on improving early warning systems or tasks such as building an 
interoperable public safety network. We should focus on leveraging our 
best-available technology to protect our citizens and make the most of 
the planning opportunities.
    The leaders at all levels of government must highlight the need for 
a renewed and increased focus on improving our emergency preparedness 
measures. In the aftermath of previous national disasters such as 
Hurricane Katrina and the unexpected recent earthquakes and tsunami in 
Japan, many Americans still wonder whether local, state, and Federal 
Governments will be prepared to offer assistance when they need it the 
most.
    Mr. Chairman, as we work to provide support for those affected by 
recent severe weather, we must be relentless in preparing for the next 
event. I look forward to working with you and other colleagues to 
ensure that we do all that we can to plan for natural and other 
disasters and respond appropriately one strikes.
    Thank you.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                       to William H. Hooke, Ph.D.
    Question 1. Throughout your career, including during your tenure as 
Deputy and Acting Chief Scientist of NOAA, you have focused on 
determining the most effective policies to reduce the negative societal 
impacts from natural disasters. Can you tell me some of the key 
recommendations that you have provided to Congress in the past for 
reducing the harm to the citizens and the economy of the United States 
caused by natural disasters?
    Answer. There were several:

        1. With Max Mayfield, former director of the National Hurricane 
        Center, I supported the establishment of a new Federal agency, 
        which would be an analog to the National Transportation Safety 
        Board, but for natural disasters. The concept is described more 
        fully in a paper Gina Eosco and I published in the Bulletin of 
        the American Meteorological Society: it is on the web at http:/
        /journals.ametsoc.org/toc/bams/87/6.

        2. I have supported the call of the Association of State 
        Floodplain Managers for a No Adverse Impact policy with respect 
        to floodplain land use and building codes, as described in much 
        greater detail on the ASFPM website. See, for example the 
        material at: http://www.floods.org/index.asp?menuID=349&first
        levelmenuID=187&siteID=1.

        3. I have supported the recommendation of the National Academy 
        of Sciences National Research Council The Impacts of Natural 
        Disasters: A Framework for Loss Estimation, published in 1999 
        and online at: http://www.nap.edu/openbook.php?record_id=6425 
        to the effect that the U.S. Department of Commerce should keep 
        track of U.S. losses to natural hazards.

        4. I have recommended that the U.S. Department of Commerce 
        offer resources to the private sector to maintain business 
        continuity in the face of hazards, and that it develop formal 
        coordination mechanisms (analogous, say, to fisheries 
        management councils) with the private sector for this purpose.

    Question 2. Which of these recommendations have been implemented to 
date?
    Answer. None.

    Question 3. In your opinion, what are the main obstacles to the 
implementation of these recommendations?
    Answer. The first two would require Federal funding (although they 
would reduce hazard losses and therefore increase incomes and tax 
revenues by amounts many times larger than their cost). Some 
conservatives might choose to argue that these measures constrain 
individual freedoms, though again this objection is more rhetorical 
than substantive.

    Question 4. The National Windstorm Impact Reduction Program was 
created in 2004, but to date has received little funding--just $7.5 
million out of the total $71.5 million authorized. What is the greatest 
challenge we face in minimizing damage from windstorms?
    Answer. Building codes and zoning that would require safer 
construction techniques (such as roof straps and other measures--these 
are inexpensive but not cost free), including construction of safe 
rooms and/or tornado shelters (these are more expensive, and will not 
save property but will save lives). However, for those most part, these 
measures are the province of the states, not the Federal Government. 
The Federal Government could require that state and local governments 
take such measures in order to receive Federal disaster assistance.
    The greatest challenge, however, the fundamental challenge, is that 
we although we know how to reduce wind damage, it always comes at 
greater cost, and this means a tradeoff between safety and 
affordability, especially for lower-income families.

    Question 5. With limited resources, what windstorm risk reduction 
activities should the government prioritize?
    Answer. The primary activities should be those that provide 
information that states, counties, and cities can use to estimate their 
risks and consider wind hazard reduction options.

    Question 6. You have mentioned the tension between funding for 
research on short-term projects rather than for long term priorities. 
Your fellow witness, Dr. Kiremidjian, has described the results of the 
33-year focus on earthquakes provided by NEHRP. If long-term funding 
were available, what projects would you undertake that you currently 
cannot?
    Answer. Phased-array radar development and implementation; an 
expanded U.S. Weather Research Program; and social-science research 
into the economic value of warnings, the communication of risk and 
warnings, the behavior of society in the face of risk, and other social 
factors contributing to natural disaster reduction.

    Question 7. While we know that mitigation saves lives and money, 
you bring up the excellent point that we have no standardized way to 
know how much disasters cost, let alone how much we might save. What 
should we be measuring and who should be measuring it?
    Answer. We should be measuring loss of life, injuries, property 
damage, and business disruption. The Department of Commerce should 
maintain the records, but work with FEMA and state and local agencies 
to gather the data. See the NAS/NRC report cited above: http://
www.nap.edu/openbook.php?record_id=6425.

    Question 8. You suggest in your testimony that warning systems are 
crucial for helping those in danger save themselves. The Administration 
recently announced an overhaul of the color-code terrorism alerting 
system. Do you think it is appropriate to develop and use a universal 
alerting system for incidents of all kinds, or does it make more sense 
to keep alerting systems separate?
    Answer. Universal warnings lead to public confusion, especially 
where the desired behavior (e.g., shelter in place vs. evacuate; seek 
higher ground (flooding), versus go to the basement (tornadoes) differs 
depending on the hazard. However, complicated separate warning systems 
require frequent public drills and programs to educate and build 
awareness in order to be effective.

    Question 9. Have you had a chance to review the new terrorism 
system to determine any applicability to natural disasters?
    Answer. No, I have not.

    Question 10. What specific steps should the Federal Government 
pursue to communicate messages in a more timely and efficient manner?
    Answer. Hazard watches and warnings are relatively well executed. 
However, getting the information that last mile to people who are out 
and about, or home asleep, or otherwise oblivious or unaware of the 
threat they face, is the problem. What's needed are not only good 
warnings, but pre-positioning of shelters and programs to build public 
situational awareness, especially of the actions they should be taking. 
Children need to know what to do. Adults who are separated from their 
children need to know those children are being protected. And as 
society changes, new social research is needed to track the 
implications for warning systems.

    Question 11. How can social media sites be leveraged to provide 
more timely information?
    Answer. I'm afraid I don't have expertise in this area.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        William H. Hooke, Ph.D.
    Question 1. In your statement you mentioned that $800 million is 
needed to launch the Joint Polar Satellite System. Dr. Lubchenco stated 
in a recent NOAA budget hearing that there will be at least an 18-month 
gap in polar satellite coverage. How will this 18 month gap impact 
weather forecasting and modeling?
    Answer. There will be a real deterioration in the accuracy of 
forecasts and warnings. I've been told that this will degrade such 
forecasts to the lower quality that existed twenty years ago. In 
today's society, it's not enough to have a few hours' notice of a 
tornado or other hazard. Emergency managers and others need several 
days' notice of increasing threat in order to begin mobilizing. It's 
essential that the forecasts over such an interval of several days be 
giving a consistent message of decreasing or increasing threat. 
Oscillations back and forth between ``threat'' or ``no threat'' in the 
run-up a few days prior to the threat compromise preparation, the 
entire warning process, and public safety, and increase false alarms.

    Question 2. Washington State will be disproportionately affected by 
the gap in satellite coverage. Do you propose any alternate weather 
prediction methods during that time to protect human life, property and 
economies?
    Answer. I know of no available measures that will compensate for 
this gap.

    Question 3. Are there privately owned, or international satellites 
that can help fill this gap in coverage?
    Answer. None that I know of.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                        William H. Hooke, Ph.D.
    Question 1. Last week five southern states, including Mississippi, 
experienced devastating tornadoes that resulted in hundreds of lives 
lost and extensive property damage. Early warning systems alerted those 
in danger to the threat an average of 24 minutes prior to tornadoes 
touching the ground. However, many residents in southern states do not 
have safe escape options to fit that timeframe. What research is being 
conducted to improve advanced warning systems for tornadoes?
    Answer. The Senator raises an excellent question, which goes at the 
heart of the issue. The simple fact is that 24 minutes of warning does 
not provide adequate lead time for those in harm's way. The entire 
approach of the National Weather Service, and emergency managers at 
both state and local levels, is aimed at a comprehensive strategy for 
managing tornado risk. That strategy begins years in advance in 
tornado-prone areas, through efforts to build awareness and support 
building codes that strengthen homes against tornado damage, provide 
for safe rooms within those homes, or underground tornado shelters 
offering quick access, provide education in the public schools, and all 
the rest. It continues at the beginning of each tornado season with 
special efforts designed to build public awareness. From this point on, 
the effort focuses on outlooks and warnings. The goal is to begin to 
let the affected public know as much as several days in advance that a 
state (like Mississippi) or an extended region will be at higher-than-
normal tornado risk for the next few days. Then, as time passes, the 
subsequent outlooks, watches, and warnings then seek to refine the area 
and the time interval at risk, right down to the actual tornado warning 
itself. The basic principle is that the public can't be expected to 
maintain a high state of alert all the time, but rather only for brief 
periods.
    Research is currently underway at NOAA, and at universities 
sponsored by NSF and NASA, to improve every link of this chain, from 
characterization of the areas at climatological risk, to the 3-5-day 
forecast, to forecasts the morning of, to the radar detection of the 
tornadoes. Emphasis is primarily on the physical development of and/or 
presence of the tornado. Big-ticket research items include the 
numerical modeling of warm-season weather, the adaptation of JPSS data 
for this purpose, and the development of phased array radars. More 
support is needed for social science, especially the communication of 
tornado risk. We ought to be as disciplined in our approach to how we 
warn as we are to the quality of those forecasts themselves

    Question 2. How is science being used to better protect citizens 
and property from catastrophic events such as those that occurred last 
week?
    Answer. As indicated above, the science is directed at extending 
the time horizon; improving the accuracy of tornado outlooks, watches, 
and warning; and the communication of those warnings to the public.

    Question 3. There are several Federal agencies that support 
national weather prediction and natural hazard preparedness. There is 
also a great deal of research on natural hazards that is carried out by 
academic institutions and the private sector. How are efforts by the 
Federal Government utilizing resources available through academic 
institutions and the private sector? In what ways could this be 
improved?
    Answer. NOAA and the National Weather Service provide some academic 
research funding themselves, and also work with NASA and NSF to 
coordinate that academic funding and ensure that research progress is 
translated into societal benefit. Much of this is accomplished through 
means such as the U.S. Weather Research Program. However, this program 
is funded at levels much below what had originally been envisioned. 
More resources for this program could accelerate the societal benefit 
substantially, at modest cost.

    Question 4. Can the government leverage resources through academic 
and private entities to advance natural hazard preparedness while 
saving costs to the American taxpayer?
    Answer. The reality is that virtually all of this academic work is 
accomplished only through the use of Federal funding from NOAA, NASA, 
and NSF. There's very little opportunity for additional leveraging 
here.

    Question 5. Hurricane Katrina devastated thousands of homes in 
Mississippi and Louisiana. Following the storm there were disputes 
regarding wind versus water damage to coastal properties and how 
residents should be compensated for their losses by insurers of wind 
versus the National Flood Insurance Program for flood damage. These 
disputes have been litigated for years in the courts, further delaying 
recovery of the Gulf Coast. Does the proper science and technology 
exist today that could tell us, with reasonable certainty, wind speeds 
and storm surge levels during a hurricane that could allow for a better 
understanding of how these perils impacted coastal properties? In other 
words, can reliable scientific data be collected to better assess wind 
and water property damage following a hurricane?
    Answer. Another excellent question, and one highlighting an 
opportunity before the Senate to improve national policy. The answer to 
the question itself is regardless of the level of science and 
technology, it will always be possible, in a certain class of cases, to 
distinguish between wind versus water damage to coastal properties. But 
regardless of the level of that science and technology, there will 
always be an additional class of cases where the prior cause will be in 
dispute. It will be possible, by improving the science and technology, 
to shift slightly, the class of homes at issue, but not by very much.
    There is an analogy here to a similar problem many of us face every 
day. At my work, phone service is provided by an Internet provider. 
That provider uses cabling and other infrastructure that belongs to the 
building where we rent our office space. Then the phone lines are 
linked to a carrier (Verizon in our case, I believe), once they reach 
the street. Sometimes our phone service goes down. Often it's clear 
whether the problem rests with our VOIP, the building, or the outside 
phone service. But not always. Then we're in dispute with all three as 
to where the problem lies.
    So, fundamentally, we have created a problem with regard to 
insurance coverage by our policy decision to separate flood insurance 
from wind insurance. My understanding of the history of this is that 
flood insurance was thought to be inherently difficult for private-
sector insurers to handle because flood events are rare but when they 
do happen they impact every home in a large area. Home insurance got 
its start 100 years ago when the primary cause of home loss was fire, 
which would occur relatively frequently, but only affect a home here or 
there. This allowed for actuarial approaches to work well. However, 
with the rise of private-sector reinsurance, the industry is much 
better equipped today to handle flood loss.
    Recognizing this, some property and casualty insurers have begun to 
offer to their customers, at a premium, insurance against flood and 
wind under a single policy. For the homeowner or business owner, this 
represents an alternative to the National Flood Insurance Program. 
[Something similar is happening in health care, where those who are 
able and willing can attain a higher level of patient service.]
    I thank the Senator for these thoughtful questions and the chance 
to discuss the issues they raise. Working together, scientists, 
forecasters, emergency managers, homebuilders, insurers, and the 
general public can reduce the risks tornadoes pose. These issues matter 
to me and to the American Meteorological Society, and we would be happy 
to discuss them further if that would be helpful.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                             to Robert Ryan
    Question 1. In my own state of West Virginia, flash floods are a 
too common event, and they cause tremendous harm including loss of 
life, homes, and jobs. But I also understand that NOAA has been able to 
improve the lead time available for flash flood warnings from an 
average of 10 minutes to about 75 minutes. Can you explain to me how 
this came about? Specifically, what technological changes were made to 
allow the greater lead time?
    Answer. There have been two significant advances that have lead to 
the increase in flash flood warning lead time. The nationwide use of 
the government/taxpayer funded NWS Doppler radars has allowed 
meteorologists to ``integrate'' the water in storms and especially 
thunderstorms and to accurately measure rainfall rates. The second 
significant advance has been in utilizing the highly accurate 
geophysical measurements now unavailable of stream and river basins and 
drainage areas to then give us a way of estimating the flooding 
potential for certain rainfall rates. The NWS Advanced Hydrologic 
Prediction Service (http://water.weather.gov/ahps/) is now providing 
operational river and stream flood guidance to local NWS offices. This 
combined with the integration of input from various NOAA/NWS forecast 
centers (Storm Prediction Center, HPC-Hydrometeorological Prediction 
Center and local NWS WFO (Weather Forecast Office)) have provided the 
significant increase in flood accuracy and advanced warning. The public 
response to these warnings, especially for flash flooding events that 
are extreme, life threatening and may only occur once in 20 or 50 years 
is still as much a social science issue as a meteorological issue.

    Question 2. While certainly the improvements that have made to date 
are extremely important, we should never be complacent. In your view, 
what more should be done in the coming years at the Federal level to 
ensure that we have a system in place to provide the public with as 
much notice as possible, and the best opportunity to keep families and 
homes and businesses safe?
    Answer. We have to make sure that the basic structure we have in 
place of fundamental, critical funding for the NOAA/NWS operations from 
satellites, to weather radars, ground based observations, super 
computers and support for applied and fundamental research is never 
compromised or degraded. If we agree that one of the fundamental 
purposes of any government is the protection of the lives and property 
of its citizens, few government organizations do that day in and day 
out to the extent and value that we taxpayers receive from our Nation's 
weather services and NOAA/NWS. Funding for one of the most critical and 
economically beneficial segments of our government should never be 
unnecessarily reduced or endangered for political purposes.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Robert Ryan
    Question 1. As a prominent meteorologist who recognizes the need to 
incorporate social science research into natural hazards risk reduction 
measures, is there value in cellphone and other novel early warning 
system communications technology?
    Answer. Given the still unpredictable nature of earthquakes any 
mobile warning is not feasible but there is great value in mobile 
warning systems for tsunami. As we saw in the tragic tsunami in Japan, 
in some areas a tsunami may follow an undersea earthquake in a matter 
of minutes. The time for warning and action is a similar time scale to 
warning and action with tornadoes. Communication of the warning and 
importantly, what action to take, though the use of smart phones and 
other mobile devices I believe can have life saving value. NOAA/NWS is 
working with FEMA on a program called IPAS (Integrated Public Alert and 
Warning System) recently outlined to over 200 attendees at the just 
concluded AMS conference on broadcast meteorology and Weather Warnings 
and Communication. Here is an outline of the program presented to the 
broadcast meteorologists: http://ams.confex.com/ams/39BROADCAST/
webprogram/Paper188896.html.

    Question 2. Do you see this type of warning system as a way to save 
lives in the event of a natural disaster in the United States?
    Answer. Most definitely. My answer above with the example of the 
joint NOAA/NWS/FEMA program does address this.

    Question 3. As you stated that the communication of severe weather 
warnings, by both traditional and new media, is critical to saving 
lives and reducing economic damage. You also indicated that how a 
message is sent is just as critical as the information it contains 
about severe weather. What are the specific gaps in the current 
communications used to inform the public that are preventing critical 
information from reaching individuals?
    Answer. The false alarm rate for tornado warnings is still about 70 
percent. That is 70 percent of the time a ``tornado warning'' is not 
followed by an actual tornado. The warnings are based primarily on 
detection of rotation in the thunderstorms sometimes 1000s of feet 
above the ground that may not produce a tornado or an observation of a 
funnel cloud which also often may not led to the funnel reaching the 
ground as a tornado. The critical information is still the risk/
severity of the event whether it is the tornado warning, a hurricane 
warning, flood warning etc. which better communicates the magnitude/
risk of the event. The tornado warning siren network in many states is 
an effective way of sounding an alarm or risk but many feel it is 
overused by emergency managers and could be made more selective with 
the current NWS warning capabilities to only sound sirens for those 
communities in the path of possible tornadoes rather than entire 
counties which cover thousands of square miles. Over warning may lead 
to public complacency in the face of a great risk from say an EF3 or 
EF4 or EF5 tornado, as opposed to a slight risk from a small EF0 
tornado. The entire weather enterprise community (NWS, broadcasters, 
emergency managers, social scientists) need to work together to more 
effectively communicate the level of risk through all media using 
common language to help the public make the best weather and life 
threatening weather related decision. There are now a multitude of ways 
of communicating critical weather information and weather warnings to 
the public. There is a gap in communicating the actual risk and what 
action individuals should take. About 40 percent of the public still 
does not know the difference between a weather ``watch'' and a 
``warning''. We as a community should seriously look at the words and 
terminology we use to communicate risk to facilitate best 
decisionmaking.

    Question 4. Has there been success in improving disaster warnings 
so that more individuals choose to follow instructions on how to stay 
safe during the emergency?
    Answer. I think the public outreach/education efforts of both NWS 
and private partners (local broadcasters, emergency managers, media 
such as The Weather Channel) have been very helpful in having the 
public understand any danger and take action. Efforts to reach out to 
our young people though school programs are very beneficial. Students 
often will learn what to do in weather emergency at school and go home 
to ``educate'' their parents. The issue of what we say to have everyone 
make the correct choice, weather related decision when the weather 
threat may be a once in a lifetime experience (a Joplin tornado, a 
``Katrina'', a ``Blizzard of 96'' etc.) is a challenge. Again 
meteorologists, trained as physical scientists, may not always be the 
best at effective communication. A social science based program at NCAR 
called WAS*IS http://www.sip.ucar.edu/wasis/ has been very successful, 
bringing NWS forecasters to summer workshops to better understand 
social and communication science issues and should be further supported 
and expanded.

    Question 5. How are agencies collaborating with the media to ensure 
that we continue to develop and employ the best possible methods to 
reach United States citizens during a natural disaster? If agencies and 
media are not collaborating in this way, why not? Do you see value in 
this type of collaboration?
    Answer. I have just returned from the recent joint AMS (American 
Meteorological Society) Conference on Broadcast Meteorology and Weather 
Warnings and Communication. It was 3 days of excellent collaboration 
and communication between and among weather communicators and Federal 
employees primarily NOAA/NWS. It was one of the best and most 
productive conferences I have attended since my first broadcast 
conference in 1972. I believe many of the papers and recorded 
presentations will be available soon. The complete program is still 
available here: http://ams.confex.com/ams/39BROADCAST/webprogram/
1STORMWARN.html.
    Joint conferences such as this and the Annual Meetings of 
professional and scientific societies and organizations such as the 
AMS, AGU, NWA (National Weather Association) and regular local and 
regional workshops and meeting foster very productive communication and 
understanding across all sectors (academic, public and private) of the 
weather enterprise. This spirit of communication, partnership and 
shared goals is greater now than at any time in years past and in my 
professional experience.

    Question 6. Would you please explain how weather forecasts 
available to American citizens will change without polar-orbiting 
satellite capabilities? For example, how will the weather on the 
nightly news differ, when we are missing a polar orbiting satellite?
    Answer. The loss of data from polar orbiting satellites is a loss 
of critical data. The loss of any data, given the current capabilities 
of the weather forecasting science and process will harm, and decrease 
the accuracy of the forecast. The advances we are seeing in increased 
lead times for life threatening weather may be ended and lead times 
reduced rather than extended. The risk is too great, the cost of 
maintaining polar orbiting weather satellites too low to stop a program 
which is an integral part of the weather forecast/warning process.

    Question 7. How will warning times for severe weather differ when 
we are missing a joint polar satellite?
    Answer. Warning times can only decrease. There is no way warning 
times can be extended, perhaps by life saving minutes, if data from 
satellites is lost or the program terminated or interrupted.

    Question 8. Does the type of storm or region affect the forecasting 
and modeling impact?
    Answer. The more data we have and usually the bigger the storm, the 
better the forecast. Thus a small storm or shower moving in from the 
Pacific Ocean into the northwest U.S. can be harder to forecast (few 
surface observations in the ocean other than weather satellite 
soundings) than a large storm moving across the center of the country. 
The current weather forecast system, as I may have mentioned, may be 
thought of as a three legged stool. One leg is fundamental science-
understanding of the physics of the atmosphere/ocean/Earth system; one 
leg is data and the third leg computer power to solve the mathematics 
and equations that describe the system we are forecasting. The loss of 
data or computer power, even as we understand more of the fundamental 
science will decrease the accuracy of the forecast. The ``models'' are 
only as good as the data and computer power necessary to give us some 
answers to the question, ``What will tomorrow's weather be?''
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Robert Ryan
    Question 1. Last week five southern states, including Mississippi, 
experienced devastating tornadoes that resulted in hundreds of lives 
lost and extensive property damage. Early warning systems alerted those 
in danger to the threat an average of 24 minutes prior to tornadoes 
touching the ground. However, many residents in southern states do not 
have safe escape options to fit that timeframe. What research is being 
conducted to improve advanced warning systems for tornadoes?
    Answer. I have given thought to Senator Wicker's questions and 
waited to respond after the recent terrible Joplin tornado and other 
severe weather. This has been an exceptional year of tragic and deadly 
weather events with a huge human and economic toll. My responses 
follow.
    The primary tool for issuing current warning is the national 
network of NWS Doppler radars. Research is underway at the National 
Severe Storm Laboratory (NSSL) on the next big step in weather radar 
technology the Phased Array Radar: http://www.nssl.noaa.gov/research/
radar/par.php which many researchers believe may increase warning times 
by 10-15 minutes. Any national coverage of PAR is probably 10-15 years 
away.
    Private sector companies are also now developing new detection 
systems looking at intracloud lightning flash rates as an indicator of 
developing severe storms with possible tornadoes. http://
weather.weatherbug.com/weatherbug-professional/products/total-
lightning-network.

    Question 2. How is science being used to better protect citizens 
and property from catastrophic events such as those that occurred last 
week?
    Answer. ``Protection'' has to be a combination of best forecasts 
and warnings, best communication and best decisionmaking by the public. 
This means we as a community really need to bring in social science 
expertise into the weather forecasting/warning and communication 
process. Programs such as WAS*IS at NCAR http://www.sip.ucar.edu/wasis/ 
and the University of Oklahoma program ``Social Science Woven into 
Meteorology'' http://cimms.ou.edu/sswim/index.htm are examples of 
increasing use of social science expertise within the physical science 
of meteorology and forecasting. These programs should continue to be 
actively and increasingly supported and used to learn how to better 
communicate life threatening warnings to the public and importantly 
learn more about how and why people make weather related decisions. 
Interestingly some recent research indicates that more than 50 percent 
of our citizens do not know the difference between weather ``watch'' 
and a ``warning'' and tornado warnings are too often ignored perhaps in 
part due to the ``crying wolf'' syndrome of a ``false alarm'' rate for 
tornado warnings of still over 60 percent http://news.msu.edu/story/
8505/&topic_id=13.
    The ``Weather Enterprise'' is working cooperatively, following a 
number of the recommendations of recent NRC reports to ensure that all 
sectors (public, private, academic) work together to best serve the 
public and advance the service of meteorology to the public and the 
economy. A coming example: http://www.ametsoc.org/MEET/fainst/
2011summercommunity.html.

    Question 3. There are several Federal agencies that support 
national weather prediction and natural hazard preparedness. There is 
also a great deal of research on natural hazards that is carried out by 
academic institutions and the private sector. How are efforts by the 
Federal Government utilizing resources available through academic 
institutions and the private sector? In what ways could this be 
improved?
    Answer. A number of examples are given in my answer to question 2. 
The NWS should involve the academic and private sector from the 
beginning in consideration of new products, warning and communication 
tools. In the past, it has appeared that the NWS was adopting tools/
systems that have been more rapidly developed and utilized by the 
private sector. Examples are from use of icons on the Internet to the 
many new methods of mobile communication. The move from pure digital/
deterministic forecasts to methods of communicating probability and 
uncertainty (as example there is no easily available public forecast 
product for type of winter precipitation (rain, snow, sleet, freezing 
rain) during the past winters severe winter weather along the East 
Coast) should be lead by NWS as called for in the recent NRC report. 
http://www.nap.edu/openbook.php?record_id=11699&page=R1

    Question 4. Can the government leverage resources through academic 
and private entities to advance natural hazard preparedness while 
saving costs to the American taxpayer?
    Answer. I think through the response of the NWS/NOAA to the above 
NRC report and efforts by the American Meteorological Society in 
establishing the entities such as the Board on Enterprise Communication 
http://www.ametsoc.org/boardpges/cwce/docs/BEC/index.html, efficient 
use of government funds and resources is being accomplished. The 
efforts of the AMS in establishing a number of workshops bringing 
together leaders from the academic, private and public sectors has 
helped foster true partnerships to benefit the common goals of service 
to the public and economy. NWS/NOAA should continue to be open 
participants in these efforts by the AMS, NCAR, NWA and other 
independent scientific organizations.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Anne S. Kiremidjian, Ph.D.
    Question 1. You cite as a positive example of Federal research and 
development the creation of a wireless structural monitoring system to 
provide more robust damage detection to buildings and other 
infrastructure. How are these sensors currently inserted into 
infrastructure? And would it be possible to retrofit buildings with 
this technology?
    Answer. The main advantage of wireless structural monitoring 
sensors is that no cables need to be installed up and down a structure. 
As a result, these sensors can be placed at key locations on buildings 
by simply attaching them to vulnerable components or at places where we 
expect to see the highest damage. Thus, mounting the sensors is 
relatively easy and cost effective (cost savings can be as much as 30 
percent with a wireless system in comparison to a wired system). Given 
these characteristics, they are particularly well suited for placing 
them on existing buildings.

    Question 2. How is this information generally collected and who 
uses the data?
    Answer. For large facilities, it would be the facility manager or 
his/her designate who will have access and collect the information onto 
a local computer. Our challenge is currently interpreting the data in a 
reliable and robust way that the owner can use to make decisions. 
Presently, we can issue first alerts immediately after a major event 
such as an earthquake that the structure may be in imminent danger of 
collapsing, thus requiring occupants to evacuate. These systems can 
provide the equivalent of red, yellow and green alerts that reflect the 
degree of danger of buildings or other structures. The technology 
currently exists to transmit this information to cell phones, PDAs, 
laptops or dedicated computers. The alert can also be connected to a 
warning system that sounds an alarm. We envision that these systems 
will be first deployed on critical facilities and gradually over time 
to other structures.

    Question 3. Japan, which is widely considered the most prepared 
nation in the world when it comes to seismic hazards, has suffered 
greatly from the March earthquake and tsunami event. A similar threat 
faces the Pacific Northwest from the Cascadia fault. The U.S. 
Geological Survey reports that in the next 50 years there is a 14 
percent chance of a massive magnitude 9 earthquake and tsunami in the 
Pacific Northwest, similar to the tragic events of this March. What 
would happen to the Pacific Northwest if an earthquake and tsunami 
event similar to that of Japan occurred along the Cascadia fault?
    Answer. As you have stated, our Pacific Northwest is particularly 
vulnerable to large earthquakes and tsunamis. The most recent study of 
the Cascadia subduction zone has shown that it is capable of a 
magnitude 9 earthquake with a high potential for generating a tsunami. 
The last major earthquake has been estimated to have occurred 
approximately 300 years ago on January 26, 1700 and ruptured 1000km 
segment of the subduction zone similar to the earthquake of March 11, 
2011 in Japan.\1\ Moreover, the January 26, 1700 event caused a very 
large tsunami that swept across the Pacific.\2\ The recurrence of these 
events is highly uncertain and can range between 200 and 700-1,300 
years. The fact that there has not been such an even since then makes 
it more likely to occur within our lifetime--a characteristic that the 
Japanese scientists appear to have ignored.
---------------------------------------------------------------------------
    \1\ John J. Clague (1997). Evidence for large earthquakes at the 
Cascadia Subduction Zone, Rev. Geophys. 35(4), 439-460. Doi:10.1029/
97RG00222.
    \2\ Natural Resources, Canada. http://
earthquakescanada.nrcan.gc.ca/histor/15-19th-eme/17
00/1700-eng.php.
---------------------------------------------------------------------------
    An earthquake of magnitude 9 can be truly devastating to all 
coastal cities and towns starting from Mendocino, California all the 
way to our border with Canada. We can expect damage to unreinforced 
masonry structures, lightly reinforced concrete structures built prior 
to 1979, single family dwellings that are built on cripple walls (i.e., 
the foundations are simple 1, to 2, high 4"x4" columns sitting on top 
of concrete base supporting the base-beams, with poor connections 
between the columns and the beams), and pre-cast concrete and tilt-up 
structures. In addition, a large number of the bridges especially in 
Oregon and to a lesser extent in Washington and California will be 
damaged; underground water, sewer and gas pipelines are likely to 
rupture in numerous locations leaving residents without water and 
contaminating ground water; there will be damage to power transmission 
lines and communications lines, limiting rescue operations and stopping 
functionality of all facilities. With water lines broken, there is also 
the potential for fire spread typically ignited because of leaking oil 
or gas. We have seen these scenarios with every past earthquake. What 
has varied is the degree to which these occur.
    What will be even more devastating is the tsunami that can occur 
with very high likelihood if a magnitude 9 earthquake occurs. Damage to 
coastal towns and villages will be extensive as there are no tsunami 
walls built in any of the three states that are exposed. Depending on 
the time of warning (which in this case could be in of the order of 20 
minutes to 1 hour depending on location) the number of casualties will 
be very large because people just cannot evacuate in such a short time. 
While most of these regions have tsunami evacuation plans, whether the 
evacuations will be effective will greatly depend on the height of the 
tsunami and the speed with which it reaches the coastal areas and 
travels inland. Recent efforts in Oregon and Washington to provide 
vertical evacuations (these are in buildings that can sustain the 
tsunami forces and are tall enough not to be completely engulfed) have 
sadly been abandoned due to state budget shortfalls and cuts leaving 
tens of millions of people highly exposed to the tsunami treat. The 
losses will be in the hundreds of billions of dollars. A study of 
potential losses should be initiated and corresponding mitigation 
action should be undertaken.

    Question 4. I read that you have recently been working on 
earthquake risks to transportation systems. How would our Nation's 
infrastructure fare during a significant earthquake?
    Answer. How our transportation systems will fare is very region 
dependent. In California, the Department of Transportation (Caltrans) 
has been systematically upgrading and retrofitting bridges in the state 
to meet higher earthquake design levels. However, there will be some 
damage to bridges. Bridges at present are designed for life safety and 
not for functionality. This design criterion allows for bridge to have 
minor damage under moderate earthquake, moderate damage under a severe 
earthquake, and can have extensive amount of damage but should not 
collapse under a great earthquake (such as the one in Japan). Thus the 
expected damage and loss.
    In addition to California, Oregon's and Washington's transportation 
departments have engaged in seismic retrofitting activities. These, 
however, were commenced only recently and most likely have not been 
completed. Similar variations in transportation resiliency also exist 
in states that are exposed to hurricanes and tornados. To the best of 
my knowledge, Florida is at the forefront in their transportation 
system upgrade for hurricanes. I am not sure about Texas and other Gulf 
states. The problem throughout the United States, however, is that we 
have a large number of infrastructure components that have gravely 
deteriorated and are vulnerable under every-day loads posing a serious 
threat without an extreme event. With an extreme event, the problem is 
even greater.
    Damage to bridges is only part of the concern. When a bridge or a 
section of a road is damaged to the extent that it is either closed or 
traffic on it is reduced, key transportation links may be severed 
hampering rescue operations and interfering with the recovery process. 
Functionality of the system is defined as the ability to travel from an 
origin to a destination in a reasonable amount of time. Based on our 
recent study, we estimated that closure of bridges and roads due to 
damage will cause significant increase in travel time that will result 
in losses that are of the same order as the losses from direct damage 
to bridges (see also response to Senator Cantwell below4). Requirements 
for functionality following an earthquake or a hurricane will bring 
transportation system in line with building performance based 
earthquake engineering design approaches (PBEE). Current design takes 
only damage to components into consideration. PBEE strives to increase 
the resiliency of the entire system and not just the components.

    Question 5. While any one disaster may directly affect just a small 
corner of the globe, the response is frequently worldwide. You have 
described the benefits of the Japanese investment in earthquake 
research. How has the world community benefited from American research?
    Answer. U.S. research supported by NSF, NIST, USGS and FEMA has 
resulted in numerous developments that are being used by other 
countries. For example, seismic design codes particularly for 
reinforced concrete, (ACI 318-08, Building Code Requirements for 
Structural Concrete, American Concrete Institute) have been adopted by 
earthquake prone countries throughout the world. It is the main reason 
why the damage from the Chile earthquake in 2010 was relatively small. 
Probabilistic seismic hazard mapping was first developed in the U.S. 
(in fact at Stanford) and is now being used virtually be all earthquake 
prone regions of the world. The Applied Technology Council (an 
organization that is part of the Structural Engineers Association of 
California) developed some of the first methods for regional earthquake 
damage and loss estimation. In addition to translating these methods to 
other hazards, such as hurricanes and tornadoes, these methods have 
resulted in important technologies that enable insurance and 
reinsurance companies from around the world to assess their risks from 
extreme events. Furthermore, Japan, China, Taiwan, Chile, Mexico and 
Italy are a few of the countries that have adopted these methods for 
their internal risks assessment. These methods are also being used by 
the Global Earthquake Model (GEM)--an international consortium funded 
by the insurance and reinsurance industry to develop an open source 
earthquake risk model. Seismic retrofit strategies and methods for 
multi-story steel moment frames that were developed shortly after the 
1994 Northridge, California earthquake with funding from FEMA have been 
adopted by Japan and other countries in the world. The performance 
based seismic design paradigm that has emerged as a result of our 
research in the past 10 years through the three NSF funded earthquake 
research centers is currently being considered by other countries in 
Europe, Asia and South America.
    There are also many technological advances invented in the U.S. 
that are being adopted in other countries but are yet to be implemented 
in the US. Wireless structural monitoring systems are being used for 
variety of purposes in Germany, Italy, France, China, Singapore and 
Korea. These systems were first developed in the U.S. and sadly enough 
are still to be implemented in our country. Fiber reinforced concrete 
was also invented in the U.S. (my colleague Professor Mike Lepech is 
one of the pioneers in the field) and is now used extensively in Japan 
for seismic retrofitting of high-rise concrete structures. China and 
several European countries are also quickly adopting these materials 
and technologies. Again, we are yet to use them and include them in our 
practice. You may raise the question of why we are so slow in adopting 
our own innovations. There many factors why, but the most important 
ones are: first lack of investment from industry--it is cheaper to 
build with existing methods and materials even if it has been 
demonstrated that in the long run it may be more cost effective to use 
the new materials; and the second one is fear of potential litigation.

    Question 6. What can we learn from Japanese preparedness that we 
can apply to our own country? Are there things that the Japanese do 
that we aren't?
    Answer. Following the 1995 Kobe earthquake, Japan invested several 
billion dollars in instrumentation, research and preparedness. The 
extensive instrumentation has enabled them to study the earthquake 
phenomenon in far greater detail than before that earthquake. In 
addition to instrumentation for seismic ground motion, they also placed 
instruments in variety of structures to enable them to study the 
behavior of structures when subjected to severe ground shaking. 
Moreover, they built the largest shaking table in the world to test 
full scale buildings (up to four stories). These tests have enabled 
them to understand not only the motions that buildings experience, but 
also how non-structural components perform and how people react to such 
motions. I am not advocating that we build such a facility as it is 
prohibitively expensive. However, we have directly benefited from their 
investment through our joint collaborative projects (typically 
supported by the NSF program on Network for Earthquake Engineering 
Simulation (NEES)). While I am not advocating to build large testing 
facilities here in the US, we can greatly benefit from the extensive 
amount of data that they have collected from the March 11 event. Such 
events are extremely rare and these types of data have never been 
collected until now.
    Japan has also engaged in systematic retrofitting of structures 
that are considered to be particularly vulnerable. For example, there 
are thousands of weakly reinforced concrete structures (those built 
prior to 1979--prior to a major design code change) both in Japan and 
throughout the United States. Their vulnerability is well understood 
and structural engineers have brought it to the attention to local and 
state officials, but there has been little action in the U.S. to 
systematically retrofit them. Only few owners have taken the initiative 
to upgrade their vulnerable structures. An ordinance combined with 
incentives should be seriously considered.
    Another area where Japan has been taking a systematic action is to 
renovate and upgrade the lifeline systems--water, sewer, power, gas, 
communications and transportation systems. Even if damage to buildings 
is minimal, if the lifelines are not functioning, a community cannot 
survive. We have seen our lifelines fail under normal operating 
conditions due to deterioration. Damage due to a large earthquake can 
be truly devastating.
    Japan had built tsunami walls that showed to be ineffective with 
the March 11 event. They had initiated vertical \3\ evacuation 
strategies before the earthquake and the tsunami; however, they had not 
gone far enough in their implementation. Oregon had initiated vertical 
evacuation studies jointly with Japan, but these have been suspended 
due to state and local government budget cuts. It is imperative that we 
review our tsunami evacuation plans and provide for vertical 
evacuation. Much of the technology is available for designing such 
structures and they can be made cost effective if combined with other 
uses.
---------------------------------------------------------------------------
    \3\ Vertical evacuation facilities refers to structures that can 
withstand a tsunami and can provide shelter to people who live in the 
vicinity of the structure. Typically, when people try to reach higher 
ground, roads may be blocked and reaching high ground on foot may not 
be feasible. However, if tall structures are present in close 
proximity, they can climb the four or five stories in less than 15 
minutes.
---------------------------------------------------------------------------
    Although there are still many people living in shelters after the 
Japan earthquake, Japan has been able to care for their citizens 
reasonably well. We can learn and greatly improve on what they did. A 
team of social scientists sponsored by the Earthquake Engineering 
Research Institute (EERI) looking into these issues has just returned 
from Japan and we are likely to learn a great deal from their findings.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                       Anne S. Kiremidjian, Ph.D.
    Question 1. Japan has created an early earthquake warning system, 
which gave its citizens over a minute warning prior to the earthquake 
in March, a critical amount of time for people to find safety. Does the 
United States have a similar warning system as far as warning time, 
accuracy and communications technology?
    Answer. The United States does not have a widely installed 
earthquake warning system. Researchers at in the West Coast have been 
working on the development of such systems for the past decade. Much of 
the technology is available but we are well behind in implementation.

    Question 2. Is such a system feasible in the United States?
    Answer. Yes it is and a prototype earthquake warning system is 
presently being considered in Coachella Valley, CA. In addition, 
several fire stations in the San Francisco Bay Area also have 
earthquake warning systems. Japan has demonstrated that it is feasible 
and has gone ahead and implemented it. The United States is seriously 
lagging behind in this respect.

    Question 3. The Japanese earthquake warning system was able to send 
text messages to Japanese citizens before the earthquake, enabling 
citizens to seek shelter. Could the United States have this capability? 
What efforts are underway to create or test the feasibility of a 
similar system in the United States?
    Answer. The United States has the necessary technologies to 
implement such a system. In general, a comprehensive early earthquake 
warning system should consist of two types of warnings. The first is 
that an important earthquake will occur within the next 5 to 30 
seconds. The warning should include the potential size and location of 
the event. This will give an opportunity for individuals to take cover, 
have back-up generators be started in critical facilities such as 
hospitals (particularly in their operating rooms), stop high speed 
trains, slow down traffic on bridges or outright close bridges, prepare 
emergency personnel to ready for their response and so on. The second 
part of the alarm system should be tied to the response of structures--
buildings, bridges, pipelines, chemical plants, etc. These systems will 
issue a warning immediately after the event. The warning can alert 
occupants that they need to evacuate a building that is in imminent 
danger of collapsing, for example. It can also alert emergency 
personnel which buildings have been severely damaged or have collapsed 
so that they can focus their response to those structures. The 
technology for both warning stages is presently available. It is a 
matter of funding and implementation.

    Question 4. Is there adequate funding for tsunami and earthquake 
warning system research proposed in the FY12 budget?
    Answer. Not even close. The total research budget of the National 
Earthquake Hazard Reduction Program is in the order of $130M that 
includes geosciences, engineering, social and economic issues, and 
response and preparedness. Only a small fraction is likely to be spent 
on tsunami research. This amount, however, does not include funding 
that may be given to NOAA for this purpose.

    Question 5. In addition to earthquake warnings, tsunamis can be 
detected using tsunami buoys offshore. At the time of the Japanese 
earthquake and tsunami, there were at least three United States tsunami 
buoys classified as inoperable. How does the earthquake/tsunami warning 
system work with tsunami buoys to predict natural hazards and warn 
citizens?
    Answer. According to Eble and Stalin (2007) \4\ ``the Deep-ocean 
Assessment and Reporting of Tsunamis (DART) real time tsunami buoy 
system is comprised of two parts--the Bottom Pressure Recorder (BPR) 
and the accompanying surface buoy with its related electronics. The BPR 
resides on the ocean bottom and monitors water pressure. Data are 
transmitted from the BPR to the surface buoy'' and then transmitted to 
ground systems via IRIDUM satellites4. The data is then used with a 
computer model to predict the water height which is compared to normal 
levels. If two readings of the water height exceed what is considered 
normal height, then the monitoring continues for a minimum period of 3 
hours. The system will revert to infrequent readings of data if for 3 
hours there are no anomalies observed. As long as readings indicate 
that normal water levels are exceeded, data will be collected 
(typically 4 minutes of 15 second observations followed by one-minute 
average values). The data and a numerical model are then used to 
forecast the propagation of the tsunami wave height. Moreover, site-
specific tsunami inundation models are used to estimate the area that 
will be affected by the forecasted tsunami. These estimates are 
continuously updated as new data becomes available. Tsunami guidance is 
then issued.
---------------------------------------------------------------------------
    \4\ Marie C. Eble and Scott E. Stalin (2007). Description of Real-
Time DART System Messages, Report by the U.S. National Oceanic and 
Atmospheric Administration, Pacific Marine Environmental Laboratory, 
Engineering Development Division, 7600 Sand Point Way, Seattle, WA 
98115.

    Question 6. With some buoys inoperable, how were predictive 
capabilities impacted? Please answer in terms of accuracy and warning 
time.
    Answer. I am not qualified to give you specifics in terms of 
accuracy and warning time. This question should be addressed to the 
National Oceanic and Atmospheric Administration's Pacific Tsunami 
Warning System who operates the tsunami system. Based on my limited 
understanding, there are approximately 26 instruments in the Pacific 
Ocean and the model utilizes those to update the tsunami height 
continuously. How the results are affected will depend on which 
instruments were inoperable and where they were located. This is one 
reason why in general we would like to have dense instrumentation. 
Instruments do malfunction when exposed to extreme weather conditions 
and with dense networks we can greatly reduce the error of tsunami 
height and time of arrival forecasts.

    Question 7. You identified a need to develop a ``performance-based 
earthquake engineering (PBEE) design tools to enable rapid and 
widespread adaptation of advanced design methods.'' Is the United 
States on track to develop these tools?
    Answer. Provided the NEHRP program is funded, we will continue to 
make progress in that direction. We have the knowledge, intellectual 
capacity and expertise to achieve this goal.

    Question 8. Has your research group collaborated with economists to 
model the average annual cost of earthquake damage with and without 
PBEE tools? If so, what is the cost of preparedness compared to the 
potential cost of damage without PBEE?
    Answer. While I have collaborated with economist throughout my 
career to answer similar questions, we have not addressed this specific 
issue. However, PBEE will address an issue that is totally ignored in 
current seismic codes that require life safety design only. With PBEE 
we will be designing structures to different requirements for 
functionality. For example, a hospital will need to be designed so that 
it is fully operational immediately after an earthquake without 
interruption. This means that it should not have any structural, 
contents or non-structural damage (these are partition walls, 
elevators, mechanical equipment, etc.). Another example is a large 
manufacturing facility will need to be functional within 5 to 10 days 
depending on what the owner specifies. The consequence of this design 
is that there will be minimal loss from business interruption.
    You may ask why we are interested in minimizing losses from non-
functionality of facilities. We conducted a study to estimate the 
losses from damage to transportation systems in the San Francisco Bay 
Area. Two types of losses were estimated. The first is the loss from 
direct damage to bridges and the second is increase in travel time due 
to the closure or reduction in lanes of damaged bridges. The second 
type of loss is what we call functionality loss. The results show that 
functionality losses can exceed direct losses from damage to 
structures. The figure below shows annual probability of loss 
exceedence for direct, functionality and total losses. For example, at 
the .004 annual probability, the direct structural loss is $1 Billion 
and the operational (or functionality) loss is $1.2 Billion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 11 Annual risk curves of the transportation network in five 
counties in the San Francisco Bay area.\5\
---------------------------------------------------------------------------
    \5\ Stergiou, E. and Kiremidjian, A. (2009), Risk Assessment of 
Transportation Systems with Network Functionality Losses, Structure and 
Infrastructure Engineering, Vol. 6, No. 1, pp. 111-125.
---------------------------------------------------------------------------
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                       Anne S. Kiremidjian, Ph.D.
    Question 1. Last week five southern states, including Mississippi, 
experienced devastating tornadoes that resulted in hundreds of lives 
lost and extensive property damage. Early warning systems alerted those 
in danger to the threat an average of 24 minutes prior to tornadoes 
touching the ground. However, many residents in southern states do not 
have safe escape options to fit that timeframe. What research is being 
conducted to improve advanced warning systems for tornadoes?
    The response to this question is developed by Professor Anne 
Kiremidjian, Stanford University and Professor Kishor Mehta, Texas Tech 
University. Both are members of ASCE.
    Answer. Tornado warning systems have been in existence for some 
time and they are deployed in most if not all tornado prone areas. 
Tornadoes can be identified as being formed 20 to 30 minutes prior to 
reaching a populated area and typically a tornado warning will be 
issued about 15 to 20 minutes before it reaches a populated region. 
According to local accounts, tornado warnings were issued during the 
recent tornadoes in the Midwest (Jeremy A. Kaplan, April 28, 2011, 
FoxNews.com). These are operated by the National Weather Service of the 
National Oceanographic and Atmospheric Administration (NOAA). In order 
to provide more accurate potential of tornado occurrence, the National 
Weather Service uses surface observation, radar data, satellite, 
airplanes, and balloons that are launched twice daily. Data from these 
observations are used to measure the atmospheric changes and are used 
in a computer model to predict the storms. Radar imagery is used to 
note the formation of a vortex that is the beginning of a tornado 
leading to a warning. The greatest difficulty is to predict the path 
and the intensity with accuracy. Typically a wide area is reported with 
the warning to provide a more inclusive warning.
    There are several reasons why warnings may not have been effective 
in the recent tornado events. The most common is complacency and 
inaction by individuals when hearing a tornado warning. This problem is 
often due to coarseness in tornado path identification. As stated 
previously, when a tornado warning is issued, it covers a broad area 
and as a result, some of the locations that received warning are 
unaffected leading people to ignore subsequent warnings. Currently 
researchers are pursuing projects in improving technology to more 
narrowly predict the path of a tornado. An example of a project is 
VORTEX2 in which almost 100 scientists spent 6 weeks in the field in 
2010 and 2011 chasing tornado producing thunderstorms to measure a wide 
variety of meteorological data. Analysis of data gathered in this 
project will result in to improved understanding and potential 
improvement in prediction including intensity of tornadoes. National 
Weather Service will need to educate and train NWS office personnel to 
improve in issuing warnings, thus limiting the number of false alarms 
and increasing public confidence in the credibility of the warnings.

    Question 2. How is science being used to better protect citizens 
and property from catastrophic events such as those that occurred last 
week?
    The response to this question is developed by Professor Anne 
Kiremidjian, Stanford University and Professor Kishor Mehta, Texas Tech 
University. Both are members of ASCE.
    Answer. Providing shelters for people who do not have basements or 
are in mobile homes is a long recognized problem. Providing shelters 
for the general public can be achieved at several levels.

        a. On the individual household level, basements have shown to 
        provide adequate safety against tornadoes. The problem is that 
        with construction costs increasing as well as by tradition many 
        areas in the country build houses directly on the ground 
        without any basements. In addition, about 30 percent of the 
        population lives in mobile homes that is most vulnerable to all 
        natural hazards, not just tornadoes. However, solutions other 
        than basements do exist. There are safe rooms that can be built 
        inside residence that are relatively inexpensive. Federal 
        Emergency Management Agency has published a booklet, Taking 
        Shelter from the Storm: Building a Safe Room Inside Your House, 
        FEMA 320, which is available on FEMA website. This booklet 
        contains construction details for eight different safe room 
        modules for a combination of various construction materials. 
        Several manufacturers have developed modules that are 
        commercially available and vendoers or builders can install 
        them. Builders can also build safe room on-site in a new home 
        or retrofit in an existing home. Affordability, of course is 
        always a question, and government subsidy may be justified if 
        no other solution can be provided.

        b. In schools, nursing homes and other public buildings where 
        people have difficulty moving rapidly it is possible to build a 
        large safe room using criteria given in Design and Construction 
        Guidance for Community Safe Rooms, FEMA P-361, second edition, 
        August 2008. These guidelines can also be used for construction 
        of safe room in manufactured home park or for a community. They 
        need to be strategically located within 10 minute distance of 
        populated areas. To make these cost effective, they should 
        serve a dual purpose. For example, a local library can be built 
        to be sturdy enough to resist a large tornado and can house 
        several hundred local residents when a warning is issued. 
        Existing buildings may not be strong enough to resist a severe 
        tornado and may need to be strengthened needing subsidies from 
        local, state or the Federal Government since that can be an 
        expensive process. The expenditure, however, is well justified 
        given that these structures will result in saving of lives.

        c. Reduction of property damage in tornadoes is a challenge. 
        Vast majority of tornadoes are not severe. Only 10 percent of 
        tornadoes out of approximately annual 1,200 tornadoes are rated 
        as severe (EF-3, EF-4. EF-5). Of these, 2 to 3 percent are 
        catastrophic causing majority of fatalities. However, we 
        continue to see property damage even in EF-1 and EF-2 
        tornadoes. There are several reasons for this level of damage. 
        Residential structures are generally not designed by engineers. 
        Building codes and standards have improved over the years 
        though the requirements are not enforced by localities. Also, 
        we do not have cost effective way of retrofitting residential 
        structures. In commercial buildings wind borne debris in 
        windstorms break window glass which leads to extensive damage 
        to the interior and furnishings not to mention business 
        interruption. In most parts of the country there is no 
        requirement of debris resisting glazing. Institute of Building 
        and Home Safety (IBHS, an insurance industry organization) has 
        recently constructed a large wind tunnel facility where a 
        typical two-story house can be tested. There is very little 
        ongoing research in academic institutions for retrofitting and 
        damage mitigation. Providing funds for Windstorm Hazard 
        Mitigation program will build government and private 
        partnership with the ultimate goal of reducing property damage 
        and also injuries and fatalities.

        d. The insurance and construction industries, research and 
        development institutions, and the government can work together 
        to promote windstorm damage mitigation measures. It is 
        envisioned that every dollar invested in a meaningful 
        mitigation measure has potential of saving the country four 
        dollars. Innovative approaches are needed to develop 
        construction criteria for new construction and retrofitting 
        existing buildings that are cost effective. This would be a 
        long term solution to mitigate damage in windstorm and other 
        natural hazards and save money for the country.

    There are several Federal agencies that support national weather 
prediction and natural hazard preparedness. There is also a great deal 
of research on natural hazards that is carried out by academic 
institutions and the private sector.

    Question 3. How are efforts by the Federal Government utilizing 
resources available through academic institutions and the private 
sector? In what ways could this be improved?
    The response to this question is developed by Professor Anne 
Kiremidjian, Stanford University.
    Answer. Weather prediction is not my specialty and thus my comments 
will be addressed to natural hazards preparedness in general. To the 
best of my knowledge, various Federal agencies have utilized academic 
resources in the following ways:

        a. Engaging academics and private sector individuals who are at 
        the forefront of various disaster related research and 
        development to serve as consultants on key issues. For example, 
        FEMA's engaged jointly academics and private industry in the 
        development of natural disaster assessment software called 
        HAZUS-MH (http://www.fema.gov/plan/prevent/hazus/
        hz_overview.shtm) was developed by a team comprised by 
        academics and private industry personnel. HAZUS currently has 
        earthquake, hurricane winds and flood loss estimation 
        capabilities and is used by variety of local and state 
        governments in addition to FEMA to project potential losses. 
        Another example is the study initiated by FEMA following the 
        January 17, 1994, Northridge California earthquake to evaluate 
        the problem of the joints in steel moment frames and to develop 
        technologies for retrofitting all existing steel moment frames 
        that are in earthquake prone areas. The results of these 
        investigations have been adopted in the latest International 
        Building Codes and are part of the current seismic design 
        requirements of structures.

        b. Workshops are organized on annual basis (sometimes several 
        times per year) to identify technologies that can be 
        implemented or further developed. These workshops are usually 
        intended as technology transfer mechanisms.

        c. Support for technology transfer to industry is provided by 
        the National Science Foundation through the Small Business 
        Innovation Research (SBIR) program. Similar programs are 
        available through other Federal agencies, but those are 
        typically not for disaster related research. Small business 
        loans are usually ineffective in this industry because they 
        require personal guarantees for all loan amounts and the 
        business model does not justify the expenditures. While the 
        National Institute for Standards and Technology has had a 
        successful Technology Innovation Program (TIP) I am not aware 
        that any of the projects supported through that program are 
        specifically disaster related. Some of the technologies may 
        eventually be used for disaster purposes.

    Are these sufficient? In general, adaptation of disaster-related 
advanced technologies is extremely slow in the U.S. I have seen other 
countries, notably Japan and most recently China take developments from 
the U.S. and adopt them on large scales, while we are still sitting and 
waiting for funding or acceptance by industry. For example, a new 
material developed by one of my colleagues, Professor Michael Lepech 
from Stanford, is being adopted both in Japan and in China for 
earthquake resistant retrofitting of vulnerable reinforced concrete 
structures. Why are these countries willing to rapidly commercialize 
such research and development efforts and we are not? They are willing 
to put the financial resources in the implementation of these 
technologies and have minimal concerns about possible litigation. 
Adaptation in the U.S. is hampered by lack of resources for developing 
proof of concept projects. An added problem is the unwillingness of 
both professionals and owners to accept new technologies even if they 
are more cost effective over existing proven methods. Part of the 
problem is the high cost of litigation that can result from potential 
failures.
    How can we improve? Perhaps the best way to accelerate the 
acceptance of new technologies is to enable demonstration project. 
Other nations invest far more (relative to their GDP) in disaster 
research and development than we do in the US. For example, Japan spend 
several billion dollars after the January 17, 1995 Kobe, Japan 
earthquake in installing instruments, tsunami early warning system, 
development of evacuation plans, retrofitting vulnerable structures, 
etc. The fact is that there are many technologies that if implemented 
can result in great reduction of losses. Some of those are simple 
things that people can do, while others require significant financing. 
What we are lacking is a plan for resiliency against natural disasters 
and then implementation of this plan. In the study that I cited in my 
testimony related to disaster mitigation strategies, we demonstrated 
how communities that were provided funding by FEMA through ``Project 
Impact'' greatly increased their disaster resiliency. Reinstatement of 
this program will be highly beneficial to our country.

    Question 4. Can the government leverage resources through academic 
and private entities to advance natural hazard preparedness while 
saving costs to the American taxpayer?
    Answer. The simple answer is yes. We have some of the best 
researchers and private industry professional. These include 
geoscientists, atmospheric scientist, engineers (structural, 
geotechnical, earthquake, wind, and flood engineers), computer 
scientists, and practitioners from the respective industries. A plan 
should be developed on how to implement existing technologies to 
greatly reduce future losses from natural disasters and increase 
community resilience. There should also be a plan for developing 
technologies that are currently lacking. The National Research Council 
study has identified some key elements of the research needs. The plan 
that is needed, however, is to identify all currently existing viable 
technologies that can be implemented today and to have a specific step 
by step approach on how to apply these technologies. Such a plan should 
assess the costs and identify an approach for cost sharing between 
individuals, private entities, professionals and governments. Example 
of such an activity would be a community identifying a structure that 
can serve as a shelter but needs further strengthening. A community 
wide effort that involves local contractors and engineers with some 
funding from local, state and Federal agencies can do the retrofitting.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                       to Professor Clint Dawson
    Question 1. You have mentioned the tension between funding for 
research on short-term projects rather than for long term priorities. 
Your fellow witness, Dr. Kiremidjian, has described the results of the 
33-year focus on earthquakes provided by NEHRP. If long-term funding 
were available, what projects would you undertake that you currently 
cannot?
    Answer. In my area, the critical needs are to study the fully 
coupled atmospheric, oceanic, coastal and geo-morphological system, to 
determine how storm surge is generated and propagated from the ocean 
onto the shore, and how storm surge interacts with and impacts the 
natural and man-made coastal environment. The goal of this research 
agenda would be to identify, categorize and mitigate risk, and 
hopefully convey information to govt. officials and the public in a way 
that informs future coastal development, public policy and the 
sustainability of coastal environments. This is a difficult problem for 
several reasons. One, there is tremendous uncertainty in almost all 
aspects of the problem, the uncertainty needs to be quantified and if 
possible new measurement techniques designed to reduce the uncertainty. 
Second, the problem is inherently multi-scale, it involves processes on 
the global, regional and local climate scales (on the order of 
kilometers), the basin, continental shelf and inland oceanic scales 
(from kilometers to hundreds of meters), down to the sub-meter scale in 
areas such as wetlands and channels. Third, we do not currently have 
the ability to model these problems on present-day computers. New 
computer algorithms and software will need to be developed which can 
handle complex multi-physics and take advantage of new computer 
architectures.
    A few years ago, there was some discussion with Sen. Kay Bailey 
Hutchison's staff about a proposed national hurricane initiative, which 
would have created a long-term, multi-agency, interdisciplinary 
research agenda for hurricane-related research. I supported this idea, 
as I feel it is the kind of long-term, sustained effort which could 
create new collaborative research projects and lead to significant and 
far-reaching breakthroughs. At present, there is no one agency that 
funds basic research in all aspects of hurricanes. The National Science 
Foundation has been a welcome source of funding for my research, but 
only as it pertains to the scientific computing aspects. One would 
expect that NOAA would be the right agency to fund such research, but 
my experience with NOAA has been that its mission is more on operations 
and not basic research. Some sort of cross-cutting, multi-agency 
sustained research initiative would in my opinion be the best approach.

    Question 2. How have computer simulations guided policymakers in 
preparing for or reacting to natural disasters?
    Answer. In my home state of Texas, the results from new high 
resolution forecast storm surge models being run at the University of 
Texas at Austin are shared with the Texas Division of Emergency 
Management, which coordinates emergency response in the event of a 
hurricane approaching Texas. The results from these simulations are 
used to deploy first responders and provide guidance to local officials 
regarding emergency evacuations. We also collaborate with researchers 
at Louisiana State University to provide information to the State of 
Louisiana in the event of a hurricane approaching their coast. Our 
ability to perform these high resolution studies in ``real-time'' is 
due to improved computer models and computer technology which has come 
on-line in the past 3 years.
    Similar high resolution computer modeling studies have been used, 
for example, by researchers at the University of Notre Dame and the 
U.S. Army Corps of Engineers to study all of the new levee systems 
which are being built in southern Louisiana in the aftermath of 
Hurricane Katrina. Similarly my group at UT Austin is working with Rice 
University and public officials in the Houston, TX region to study 
potential storm surge mitigation strategies for the Houston-Galveston 
metropolitan area in the aftermath of Hurricane Ike. These computer 
models are also being used to develop new Digital Flood Insurance Rate 
Maps (DFIRMS) for FEMA, which determines which areas of the coast 
qualify for Federal flood protection.

    Question 3. What advances in storm system and disaster modeling are 
forthcoming that will aid future decision-makers?
    Answer. These are advances which are either in the works or 
proposed:

        1. The ADCIRC Surge Guidance System (ASGS) is being deployed at 
        The University of North Carolina-Chapel Hill, Louisiana State 
        University, the U.S. Army Corps of Engineers, and the 
        University of Texas at Austin. The ASGS is a state-of-the-art 
        hurricane surge forecast system which produces predictions of 
        storm-surge in real-time. Results from the ASGS are posted and 
        shared with emergency managers across several states, and with 
        the U.S. Army Corps of Engineers. Future capabilities of the 
        ASGS will include ensemble surge modeling where a suite of 
        potential storm tracks can be executed simultaneously to 
        provide emergency managers with statistical information on the 
        probability of a significant storm surge event in a given 
        region of the coast.

        2. There have been significant advances in data collection, 
        measurements, and instrumentation over the past 5 years, 
        primarily through NOAA, the USGS, and state and local agencies. 
        The coupling of data with computer models has led to vast 
        improvements in the physical descriptions of the coastal ocean 
        and coastal environment, and improved our ability to 
        mathematically model hurricanes, and has in turn provided 
        feedback which has led to improved data collection.

        3. As we move into the future, we hope to have a better 
        understanding of the longer-term impacts of storm surge on 
        coastal ecology, wetlands, barrier islands, shorelines, as well 
        as on the built infrastructure, including protection systems 
        such as levees, buildings, bridges, ports and harbors, and 
        industrial complexes. This understanding we hope will guide 
        policymakers, government officials, and local communities to 
        make informed decisions about coastal development and help make 
        coastal communities more resilient to disasters.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                         Professor Clint Dawson
    Question 1. Last week five southern states, including Mississippi, 
experienced devastating tornadoes that resulted in hundreds of lives 
lost and extensive property damage. Early warning systems alerted those 
in danger to the threat an average of 24 minutes prior to tornadoes 
touching the ground. However, many residents in southern states do not 
have safe escape options to fit that timeframe. What research is being 
conducted to improve advanced warning systems for tornadoes?
    Answer. This is not my area of expertise.

    Question 2. How is science being used to better protect citizens 
and property from catastrophic events such as those that occurred last 
week?
    Answer. There are several Federal agencies that support national 
weather prediction and natural hazard preparedness. There is also a 
great deal of research on natural hazards that is carried out by 
academic institutions and the private sector.

    Question 3. How are efforts by the Federal Government utilizing 
resources available through academic institutions and the private 
sector? In what ways could this be improved?
    Answer. In my field, the Federal Government agencies that I 
interact with are the U.S. Army Corps of Engineers, FEMA and to a 
lesser degree NOAA. The USACE uses our computer models (developed in a 
partnership with 3 academic institutions) to study levee designs for 
hurricane protection systems along the Gulf coast. FEMA uses our model 
to design flood insurance rate maps for coastal states. NOAA is 
evaluating our model for forecasting storm surge. Essentially these 
agencies are utilizing resources which were initially paid for by 
several agencies, including the National Science Foundation. I think 
this is a great example of basic research eventually becoming useful to 
the larger scientific community and the Federal Government. One 
difficulty has been sustaining funding so that we can see the research 
through to its fruition. That is, once a computer model is developed, 
getting it to the point where it can be used by a non-expert is 
difficult. This is one area where interaction with private industry can 
be helpful, specifically consulting companies which have expertise in 
software engineering and commercialization. Finding the right mix of 
financial support is often difficult however.

    Question 4. Can the government leverage resources through academic 
and private entities to advance natural hazard preparedness while 
saving costs to the American taxpayer?
    Answer. Yes and they do. For example, we work at the request of the 
Texas Division of Emergency Management during hurricane events to 
provide them with storm surge forecasts for storms approaching Texas or 
Louisiana. This is in addition to what is provided by the National 
Weather Service. We utilize computer resources available on our campus 
funded by the NSF and the State of Texas. We use computer models 
developed under federally-funded research, but the state doesn't pay us 
directly to do these forecasts. We do this as a public service and 
consider it part of our outreach.

    Question 5. Hurricane Katrina devastated thousands of homes in 
Mississippi and Louisiana. Following the storm there were disputes 
regarding wind versus water damage to coastal properties and how 
residents should be compensated for their losses by insurers of wind 
versus the National Flood Insurance Program for flood damage. These 
disputes have been litigated for years in the courts, further delaying 
recovery of the Gulf Coast. Does the proper science and technology 
exist today that could tell us, with reasonable certainty, wind speeds 
and storm surge levels during a hurricane that could allow for a better 
understanding of how these perils impacted coastal properties? In other 
words, can reliable scientific data be collected to better assess wind 
and water property damage following a hurricane?
    Answer. For the most part yes, and this has been done for all of 
the U.S. hurricanes since 2005. Our computer models have simulated 
Katrina, Rita, Gustav and Ike. We can match measured water levels over 
80-90 percent of the affected areas of the coast to within .5 meter, 
and often within .1 meter. This work has been peer-reviewed and 
published (except for Ike which is still underway). We are in a much 
better position than we were 6-7 years ago with respect to predicting 
flooding. Also, there have been significant efforts at instrumentation 
in these regions for obtaining better measurements of water levels, 
wave heights and wind velocities. There are still a few areas where we 
see errors between measurements and model results, particularly near 
certain types of coastal structures, and in wetlands and marshes. These 
areas need further investigation. There is also still work to be done 
on predicting the impacts of wave overtopping on coastal structures 
during a hurricane. But wave overtopping is generally restricted to the 
area right at the shoreline.

                                  <all>

</pre></body></html>
